No. 19In the

Supreme Court of the United States

XIA BI, et al.,
Petitioners,
v.
TERRY MCAULIFFE AND ANTHONY RODHAM,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

Marina V. Bogorad
Counsel of Record
Gerard Fox Law P.C.
1880 Century Park East, Suite 1410
Los Angeles, California 90067
(310) 441-0500
mbogorad@gerardfoxlaw.com
Counsel for Petitioners

291512

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1. Whether Rule 9(b) of the Federal Rules
of Civil Procedure imposes a particularity
requirement for pleading the reliance element
of common law fraud claims.
2. Whether foreign investors’ exclusive
reliance on misrepresentations contradicting
English-language investment memoranda
renders their reliance unjustifiable as a
matter of law.
3. Whether company statements are
attributable to the executives that are in
charge of the company’s daily affairs.

ii
PARTIES TO THE PROCEEDING
Petitioners Xia Bi, Nian Chen, Ying
Cheng, Chunsheng Li, Lin Lin, Lan Liu,
Meiming Shen, Yunping Tan, Bixiang Tang,
Yahong Wang, Yue Wang, Jian Wu, Junping
Yao, Xuemei Zhang, and Yan Zhao
(“Petitioners”) were appellants in the United
States Court of Appeals for the Fourth
Circuit, Case No. 18-2194. Terry McAuliffe
and Anthony Rodham were the only
respondents in that case.

iii
RELATED CASES STATEMENT
Xia Bi, et al. v. Terry McAuliffe, et al., No.
1:17-cv-01459, U. S. District Court for the
Eastern District of Virginia.
Order of
dismissal entered on Sept. 5, 2018.
Xia Bi, et al. v. Terry McAuliffe, et al., No. 182194, U. S. Court of Appeals for the Fourth
Circuit. Judgment entered July 17, 2019.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................... i
PARTIES TO THE PROCEEDING .............. ii
RELATED CASES STATEMENT ............... iii
PETITION FOR A WRIT OF
CERTIORARI ................................................ 1
OPINIONS BELOW ...................................... 1
STATEMENT OF JURISDICTION .............. 1
PERTINENT REGULATORY
LANGUAGE .................................................. 2
STATEMENT OF THE CASE ...................... 4
A. Background facts ................................ 8
B. Proceedings Below ............................ 11
REASONS FOR GRANTING THE
WRIT ............................................................ 15
I. THIS COURT SHOULD
RESOLVE THE CIRCUIT
SPLIT AS TO WHETHER
FEDERAL RULES REQUIRE
PLEADING WITH
PARTICULARITY THE
FACTS SUPPORTING THE
RELIANCE ELEMENT OF
COMMON LAW FRAUD .................. 15

v
A. The Split of Authority on
the Issue of Particularity of
Pleading Reliance Requires
This Court’s Intervention ............ 15
B. The Reliance Allegations
in Petitioners’ Complaint
Should Be Sufficient to
Withstand a Motion to
Dismiss ......................................... 19
II. THE FOURTH CIRCUIT
MISAPPLIED VIRGINIA
LAW BY FINDING
PETITIONERS’ RELIANCE
UNJUSTIFIABLE AS A
MATTER OF LAW ............................ 24
III.“GROUP-PUBLISHED”
MISREPRESENTATIONS
THAT THE FOURTH
CIRCUIT FAILED TO
CONSIDER PROVIDE AN
ALTERNATIVE GROUND
TO GRANT THE PETITION ............ 33
A. This Court Should Take
the Opportunity to Clarify
Application of the
Presumption and Address
the Split of Authority on
the Issue ....................................... 34

vi
B. Petitioners Alleged
Sufficient Facts to Hold
Both Respondents
Responsible for Their
Respective Company
Statements ................................... 40
CONCLUSION ............................................ 44

vii
APPENDICES ............................................. 1a
Appendix A, Opinion of the United
States Court of Appeals for the
Fourth Circuit .............................................. 1a
Appendix B, Order of the United
States District Court for the Eastern
District of Virginia .................................... 23a
Appendix C, Order of the United
States District Court for the Eastern
District of Virginia .................................... 30a
Appendix D, Order of the United
States Court of Appeals for the
Fourth Circuit ............................................ 35a

viii
TABLE OF AUTHORITIES
Cases
Ashcroft v. Iqbal,
556 U.S. 662 (2009) ................................ 16
Aviva Life & Annuity Co. v. Davis,
20 F. Supp. 3d 694
(S.D. Iowa 2014) ..................................... 37
Bank of Montreal v. Signet Bank,
193 F.3d 818 (4th Cir. 1999) .. 6, 12, 24, 27
Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) ................................ 16
Berry v. Valence Tech., Inc.,
175 F.3d 699 (9th Cir. 1999) .................. 36
Columbia Briargate Co. v.
First Nat. Bank in Dallas,
713 F.2d 1052 (4th Cir. 1983) ................ 36
Crall v. Com.,
103 Va. 855, 49 S.E. 638 (1905) ............. 40
Cresswell v. Sullivan & Cromwell,
922 F.2d 60 (2d Cir. 1990) ...................... 32
Dunn v. Borta,
369 F.3d 421 (4th Cir. 2004) ............ 12, 34
Durgin v. Mon,
659 F. Supp. 2d 1240
(S.D. Fla. 2009),
aff’d, 415 F. App’x 161
(11th Cir. 2011) ...................................... 40

ix
Evans v. Pearson Enterprises, Inc.,
434 F.3d 839 (6th Cir. 2006) .................. 17
Great Pac. Sec. v. Barclays Capital, Inc.,
743 F. App’x 780 (9th Cir. 2018) ............ 17
Gunnells v. Healthplan Servs.,
348 F.3d 417 (4th Cir. 2003) ............. 31-32
Hawkins v. Medtronic, Inc.,
62 F. Supp. 3d 1144
(E.D. Cal. 2014) ...................................... 18
Hitachi Credit Am. Corp. v.
Signet Bank,
166 F.3d 614 (4th Cir. 1999) ...... 12, 13, 24
Horner v. Ahern,
207 Va. 860 (1967) ..................... 5-6, 24, 27
IAS Servs. Grp., L.L.C. v.
Jim Buckley & Assocs., Inc.,
900 F.3d 640 (5th Cir. 2018) ............ 17, 32
Ill. State Bd. of Inv. v.
Authentidate Holding Corp.,
369 F. App’x 260 (2d Cir. 2010) ............. 34
Indiana Bell Tel. Co. v. Ward,
No. IP 02-170-C H/K,
2002 WL 32067296
(S.D. Ind. Dec. 6, 2002) .......................... 18
In re APA Assessment Fee Litig.,
766 F.3d 39 (D.C. Cir. 2014) .................. 32
In re Baan Co. Sec. Litig.,
103 F. Supp. 2d 1 (D.D.C. 2000) ............ 38

x
In re Banco Bradesco S.A. Sec. Litig.,
277 F. Supp. 3d 600
(S.D.N.Y. 2017) ....................................... 37
In re BankAmerica Corp. Sec. Litig.,
78 F. Supp. 2d 976
(E.D. Mo. 1999) ....................................... 39
In re Digi Int’l, Inc. Sec. Litig.,
6 F. Supp. 2d 1089
(D. Minn. 1998) ....................................... 35
In re Digi Int’l, Inc., Sec. Litig.,
14 F. App’x 714 (8th Cir. 2001) .............. 35
In re Fed. Nat’l Mortg.
Ass’n Sec., Derivative, & “ERISA” Litig.,
503 F. Supp. 2d 25 (D.D.C. 2007) .......... 38
In re GlenFed, Inc. Sec. Litig.,
60 F.3d 591 (9th Cir. 1995) .................... 35
In re NJOY, Inc. Consumer
Class Action Litig.,
No. CV1400428MMMRZX,
2014 WL 12586074
(C.D. Cal. Oct. 20, 2014)......................... 18
In re Raytheon Sec. Litig.,
157 F. Supp. 2d 131
(D. Mass. 2001) ....................................... 38
In re Testosterone Replacement
Therapy Prod. Liab. Litig.
Coordinated Pretrial Proceedings,
159 F. Supp. 3d 898
(N.D. Ill. 2016) ........................................ 18

xi
In re Thornburg Mortg., Inc. Sec. Litig.,
695 F. Supp. 2d 1165
(D.N.M. 2010) ......................................... 40
In re TransCare Corp.,
592 B.R. 272
(Bankr. S.D.N.Y. 2018) .......................... 37
Janus Capital Grp., Inc. v.
First Derivative Traders,
564 U.S. 135 (2011) ........................... 37-38
Lachmund v. ADM Inv’r
Servs., Inc.,
191 F.3d 777 (7th Cir. 1999) .................. 23
Learning Works, Inc. v.
The Learning Annex, Inc.,
830 F.2d 541 (4th Cir. 1987) .................. 16
Local 295/Local 851 IBT
Employer Grp. Pension Tr. &
Welfare Fund v. Fifth Third
Bancorp.,
731 F. Supp. 2d 689
(S.D. Ohio 2010) ..................................... 38
Luce v. Edelstein,
802 F.2d 49 (2d Cir. 1986) ...................... 35
Midwest Commerce Banking
Co. v. Elkhart City Ctr.,
4 F.3d 521 (7th Cir. 1993) ...................... 15
Miller v. Asensio & Co.,
364 F.3d 223 (4th Cir. 2004) .................. 15

xii
Min Fu v. Hunan of Morris Food Inc.,
No. CIV. 12-05871 KM,
2013 WL 5970167
(D.N.J. Nov. 6, 2013) .............................. 30
Nationwide Ins. Co. v. Patterson,
229 Va. 627 (1985) ............................ 27, 28
Qun v. Karstetter,
No. 14-CV-1362-CAB (DHB),
2014 WL 12461260
(S.D. Cal. Sept. 24, 2014) ....................... 31
Rodi v. S. New England Sch. of Law,
389 F.3d 5 (1st Cir. 2004)....................... 17
Schwartz v. Celestial Seasonings, Inc.,
124 F.3d 1246 (10th Cir. 1997) .............. 35
Semenov v. Hill,
982 P.2d 578 (Utah 1999)....................... 30
Shuker v. Smith & Nephew, PLC
885 F.3d 760 (3d Cir. 2018) .................... 17
Slater v. A.G. Edwards & Sons, Inc.,
719 F.3d 1190 (10th Cir. 2013) .............. 40
Songwooyarn Trading Co. v.
Sox Eleven, Inc.,
213 N.C. App. 49
(N.C. Ct. App. 2011) ............................... 30
Southland Sec. Corp. v.
INSpire Ins. Sols., Inc.,
365 F.3d 353 (5th Cir. 2004) .................. 36

xiii
Tekstrom, Inc. v. Savla,
No. CIV.A. 05A-12-006JTV,
2006 WL 2338050
(Del. Super. Ct. July 31, 2006
aff’d, 918 A.2d 1171 (Del. 2007) ............. 30
Tellabs, Inc. v. Makor Issues &
Rights, Ltd.,
551 U.S. 308 (2007) ................................ 39
Van Deusen v. Snead,
247 Va. 324 (1994) ...................... 24, 27, 29
Winer Family Tr. v. Queen,
503 F.3d 319 (3d Cir. 2007) .................... 36
Statutes
8 U.S.C. § 1153(b)(5) ...................................... 9
28 U.S.C. § 1254(1) ........................................ 2
28 U.S.C. § 1367(a) ...................................... 12
Private Securities Litigation
Reform Act of 1995
Pub. L. 104-67, 109 Stat. 737 ...................... 36
Rules
Federal Rule of Civil Procedure 8 ......... 17, 18
Federal Rule of Civil Procedure 9 ............... 17
Federal Rule of Civil Procedure 9(b) ........... 35
Federal Rule of Civil Procedure 12(b)(6) .... 12

1
PETITION FOR A WRIT OF
CERTIORARI
Petitioners respectfully petition for a writ
of certiorari to review the judgment of the
United States Court of Appeals for the Fourth
Circuit in this case.1
OPINIONS BELOW
The opinion of the United States Court of
Appeals for the Fourth Circuit under review
(App. 1a-22a) is reported at 927 F.3d 177. The
opinion of the United States District Court for
the Eastern District of Virginia dismissing
the amended complaint (App. 23a-29a) is
unreported but is available at 2018 WL
4224850. The opinion of the United States
District Court for the Eastern District of
Virginia dismissing the original complaint
(App. 30a-34a) is unreported.
STATEMENT OF JURISDICTION
The United States Court of Appeals for the
1 All internal alterations, quotation marks,
footnotes and citations herein are omitted and
all emphasis is added unless otherwise noted.
All “CA JA” references are to the Joint
Appendix filed by the parties as Dkt. No. 22-1
in Xia Bi v. McAuliffe, Case No. 18-2194 (4th
Cir.).

2
Fourth Circuit issued its judgment on
June 12, 2019 and thereafter amended it on
July 9, 2019. Petitioners’ timely petition for
rehearing en banc was denied on July 9, 2019.
The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).
PERTINENT REGULATORY
LANGUAGE
Federal Rule of Civil Procedure 9 – Pleading
Special Matters:
(a) Capacity or Authority to Sue; Legal
Existence.
(1) In General. Except when required to
show that the court has jurisdiction, a
pleading need not allege:
(A) a party's capacity to sue or be
sued;
(B) a party's authority to sue or be
sued in a representative capacity; or
(C) the legal existence of an
organized association of persons
that is made a party.
(2) Raising Those Issues. To raise any
of those issues, a party must do so by a
specific denial, which must state any
supporting facts that are peculiarly
within the party's knowledge.

3
(b) Fraud or Mistake; Conditions of Mind.
In alleging fraud or mistake, a party must
state with particularity the circumstances
constituting fraud or mistake. Malice,
intent, knowledge, and other conditions of
a person's mind may be alleged generally.
(c) Conditions Precedent. In pleading
conditions precedent, it suffices to allege
generally that all conditions precedent
have occurred or been performed. But
when denying that a condition precedent
has occurred or been performed, a party
must do so with particularity.
(d) Official Document or Act. In pleading
an official document or official act, it
suffices to allege that the document was
legally issued or the act legally done.
(e) Judgment. In pleading a judgment or
decision of a domestic or foreign court, a
judicial or quasi-judicial tribunal, or a
board or officer, it suffices to plead the
judgment or decision without showing
jurisdiction to render it.
(f) Time and Place. An allegation of time or
place is material when testing the
sufficiency of a pleading.
(g) Special Damages. If an item of special
damage is claimed, it must be specifically
stated.
(h) Admiralty or Maritime Claim.
(1) How Designated. If a claim for relief
is within the admiralty or maritime

4
jurisdiction and also within the court's
subject-matter jurisdiction on some
other ground, the pleading may
designate the claim as an admiralty or
maritime claim for purposes of Rules
14(c), 38(e), and 82 and the
Supplemental Rules for Admiralty or
Maritime Claims and Asset Forfeiture
Actions. A claim cognizable only in the
admiralty or maritime jurisdiction is
an admiralty or maritime claim for
those purposes, whether or not so
designated.
(2) Designation for Appeal. A case that
includes an admiralty or maritime
claim within this subdivision (h) is an
admiralty case within 28 U.S.C. §
1292(a)(3).
STATEMENT OF THE CASE
“America
has
always
relied
on
entrepreneurship and investment to propel
her economy forward,” writes the Fourth
Circuit in its opinion under review (App. 21a),
yet the net effect of its conclusions threatens
to forestall a great deal of foreign investment
in our economy, raising insurmountable
barriers to the legislative vehicle specifically
designed to attract foreign capital for future
job growth.
This Petition asks whether a plaintiff who
is not literate in the English language states

5
a claim for fraud through allegations that the
defendants misled the plaintiff in her native
language, then attempted to disclaim away
liability in agreements written in English,
which the plaintiff could not and did not read.
The Fourth Circuit affirmed a trial court’s
holding that the Petitioners, Chinese
nationals seeking to immigrate to our country
through the federal EB-5 program, could not
state a claim through such allegations, as
their failure to read or translate the Englishlanguage boilerplate disclaimers precluded
them from satisfying the justifiable reliance
element of their fraud claims.
In doing so, the Fourth Circuit chose to
side with those courts that require
particularity of pleading on the reliance
element of a fraud claim. A straightforward
reading of the relevant procedural rules,
however, does not support application of the
higher pleading standard to the facts
concerning a plaintiff’s state of mind.
Furthermore, the Fourth Circuit erred by
misapplying Virginia law, which controls on
the merits of the Petitioners’ common law
fraud claims.
Specifically, the Fourth
Circuit’s decision conflicts with the Virginia
Supreme Court, which held that a fraud
plaintiff is excused from pleading justifiable
reliance “if the seller does or says anything to
divert the buyer ‘from making the inquiries
and examination which a prudent man ought
to make,’” Horner v. Ahern, 207 Va. 860, 864

6
(1967), and that the Horner “diversion” can
be caused by the alleged false statements
themselves, Bank of Montreal v. Signet Bank,
193 F.3d 818, 828 n.4 (4th Cir. 1999)
(applying Virginia law).
These cases
establish that courts considering fraud cases
under Virginia law “have effectively
eliminated the requirement that reliance be
reasonable in some cases.” Id. Though the
facts of this case are tailor made for Virginia’s
reliance exception, the Fourth Circuit
declined to apply it.
Finally, the Fourth Circuit failed to reach
all the fraudulent statements alleged by the
Petitioners, yet it affirmed the lower court’s
dismissal of the fraud claims anyway. The
misrepresentations that the Fourth Circuit
failed to reach, however, raise another split of
authority because they are “group published”
company statements that should be
attributed to the Respondents, since the latter
are the executives in charge of the company’s
daily affairs, yet courts are divided as to
whether such attribution is proper. It is
important to provide clarity on the issue and
eradicate this loophole for corporate insiders
to escape liability for the statements they
control. In this case, “group publishing”
attribution would save Petitioners’ fraud
claims, since the reliance analysis would
change, as these company statements were
communicated directly to the Petitioners,

7
erasing any doubts that they were exposed
thereto.
This case is exceptionally important,
because it squarely impacts the incentives of
foreign investors seeking to migrate to our
country in compliance with the federal EB-5
program, which allows foreign investors who
invest in new enterprises to obtain permanent
residency in the United States. The Fourth
Circuit recognized the importance of the EB5 program, and the need to strike the proper
balance between risk and reward for investors
in that program, in its opinion’s closing
paragraph. App. 21a-22a. The importance of
the Fourth Circuit’s reliance holding is
heightened because Respondents here
marketed their high stature within the
American government, yet the Fourth Circuit
faulted them for actually undermining the
public trust. App. 14a. Indeed, the Fourth
Circuit rejected the lower court’s conclusion
that Respondents’ statements were mere
opinion or “puffery”—they were far from it:
[D]efendants’ statements ran in front
of the facts on the ground. There are
no laurels in this case, no accolades to
be bestowed. These are just the sort
of
misstatements
targeted
by
statutory and common law fraud
causes of action.… Far from building
investor confidence, misstatements
like those alleged in this case

8
undermine public trust. We decline to
whitewash the alleged misstatements
here.
Id.
Given these findings, Petitioners
respectfully suggest that the question of
whether they had a right to rely on these
misstatements, in the context of this case—in
which the Petitioners were English-illiterate,
and Respondents knew they were—warrants
this Court’s review.
A.

Background facts

Petitioners are Chinese immigrants who
invested $500,000 apiece in GreenTech
Automotive, Inc. (“GreenTech”), a would-be
electric car company, in exchange for a false
promise of the American dream. App. 2a-3a.
GreenTech was a Mississippi corporation run
through a web of related companies by
Respondents Terry McAuliffe and Anthony
Rodham. Both Respondents were endowed
with high visibility of political connections,
acting as prominent figures within the ranks
of the Democratic Party.
It was these
connections that Respondents marketed to
attract investors in exchange for a Green
Card.
Indeed, they dangled permanent
residency in the U.S. through the federal EB5 program in front of these investors and then
reneged on every promise they made. This
case is about fraud and greed and praying on
vulnerable foreign investors who may not
appreciate the full extent of English-language
disclosures—especially where, as here, they

9
were bombarded with conflicting information
in their native language that commanded
their trust and respect due to Respondents’
much-touted positions and affiliations within
various levels of the U.S. government
structures.
McAuliffe was the co-founder and former
Chairman of GreenTech. App. 4a. Rodham
was the CEO of sibling companies set up to
fund and serve GreenTech. App. 4a-5a.
Rodham also served as President and CEO of
Gulf Coast, the management company that
received the Petitioners’ administrative fees.
Id. A third named defendant, Charles Wang
(who is not part of the case on appeal), coowned GreenTech with Mr. McAuliffe and
owned the Gulf Coast and GreenTech
automotive Partnership A-3, LP (the “A-3
partnership”), an investment vehicle used to
accept Petitioners’ funds for a loan-out to
GreenTech. CA JA 142.
GreenTech planned to mass produce
hybrid vehicles. App. 2a-3a. To fund this
plan, its principles raised funds from
investors under the Employment-Based
Immigration Fifth Preference, or EB-5,
Program (8 U.S.C. § 1153(b)(5)). App. 3a.
This program offers a path to permanent
residency for foreign investors whose
investments in American projects create or
preserve at least ten American jobs. Id.
As Petitioners alleged in their complaint,
Respondents
made
a
slew
of

10
misrepresentations to raise these funds, both
individually and through the various
companies they ran. Thus, Mr. McAuliffe
himself misrepresented the number of cars
GreenTech had sold, the number of employees
it had hired (a key metric for immigration
purposes) and GreenTech’s customer base.
App. 5a-6a. In turn, Mr. Rodham himself
misrepresented the percentage of non-EB-5
investment in GreenTech and the nature of
the relationship between the sibling
companies at issue. App. 5a. The complaint
further showed the misrepresentations issued
by the companies Respondents controlled,
including
representations
that
the
investments were both “guaranteed” and EB5-compliant. CA JA 141, 148, 152, 156, 175 &
182 at ¶¶ 10, 53, 66, 81, 172 & 204.
Respondents
made
post-investment
misrepresentations to the Petitioners as well,
which were designed to forestall the
Petitioners from terminating the investment
and turn to other projects instead. Those
misrepresentations included the number of
cars GreenTech had sold, or that customers
had otherwise ordered; the number of jobs
created or that GreenTech reasonably
expected to create; and GreenTech’s customer
relationships. C JA 167 & 177 at ¶¶ 140, 141,
143, & 177-180.
One artifice of Respondents’ concealment
practices was the use of the Chinese language
when inducing reliance, and English when
trying to shift the risk of that reliance onto the

11
Petitioners. CA JA 155 at ¶¶ 77-79. The
Petitioners were presented with detailed
communications
in
Chinese
that
misrepresented the nature of the investment,
the performance of the company, funding
GreenTech had received, and the guarantee
that investors would obtain visas through this
investment. See id. at ¶ 79. On the other
hand, the private placement memorandum
describing the investment and the limited
partnership
agreement
binding
the
Petitioners to the Respondents and their
companies “were distributed to plaintiffs in
English only, not Chinese.” App. 3a. The
English
communications
contain
the
boilerplate disclaimers the Fourth Circuit
found dispositive of the reliance question,
including
warnings
concerning
the
speculative nature of the investment and the
company’s “development stage” status. See,
e.g., App. 18a-19a. The Petitioners stated
that they signed the subscription documents
“without reviewing any version” and do not
claim to have translated the documents into
their native language. App. 3a.
In the end, GreenTech “failed to
manufacture and sell vehicles,” “defaulted on
the loan from the A-3 partnership,” and “filed
for bankruptcy.” App. 7a.
B.

Proceedings Below

The Petitioners filed their initial
complaint in Virginia state court. App. 7a.
Respondents removed the suit to the Eastern

12
District of Virginia based on federal question
jurisdiction as well as supplemental
jurisdiction for state law claims under 28
U.S.C. § 1367(a). CA JA 146. Respondents
moved to dismiss the complaint for failure to
state a claim under Federal rule of Civil
Procedure 12(b)(6), and the district court
granted their motions on March 30, 2018,
with leave to amend. App. 7a. On April 11,
2018, Petitioners filed the operative
complaint at issue here, their First Amended
Complaint (“FAC”).
CA JA 137-198.
Defendants renewed their motions to dismiss,
and Petitioners opposed, in relevant part, by
arguing that the Fourth Circuit’s companion
holdings in Hitachi Credit Am. Corp. v. Signet
Bank, 166 F.3d 614 (4th Cir. 1999), and Bank
of Montreal v. Signet Bank, 193 F.3d 818 (4th
Cir. 1999), excuse any requirement to allege
justifiable reliance with particularity.
Petitioners argued further that Respondents
are responsible for statements made by their
corporate fronts, invoking Dunn v. Borta, 369
F.3d 421 (4th Cir. 2004). The trial court did
not address either argument and dismissed
the FAC with prejudice. App. 8a. It stated
that reliance on the oral misstatements that
preceded
written
disclosures
was
unreasonable because the Petitioners did not
read or review the offering documents.
Moreover, in failing to address any company
misstatements, the district court failed to
analyze all the misstatements alleged in the
complaint, as required for any particularity

13
analysis under Rule 9(b). This is especially so
given that the circumstances surrounding
Petitioners’ reliance on the company
misstatements were different from those
pertaining to the Respondents’ individual
misstatements.
On June 12, 2019, the Fourth Circuit
affirmed, though not before rejecting the trial
court’s
finding
that
the
individual
misrepresentations considered were “nonactionable
puffery
or
forward-looking
statements.” App. 13a-14a. (“These are just
the sort of misstatements targeted by
statutory and common law fraud causes of
action.”). But the court also rejected its own
“diversion” exception announced in Hitachi.
According to the Fourth Circuit, the exception
does not apply here because the Petitioners
were “provided [with] the relevant offering
documents” containing the boilerplate
disclaimers, and nothing suggests that the
“defendants prevented them from taking the
modest step of reviewing the operative
offering documents that they signed.” App.
20a. The court reasoned that “defendants had
no generalized duty to translate the
subscription documents for the benefit of
foreign investors,” and feared the imposition
of a “new duty of translation on parties
seeking to raise funds from foreign investors.”
Id. The court did not consider whether, under
its own Hitachi exception, the oral
misrepresentations made to the Petitioners in

14
their native language could have plausibly
diverted them from further inquiry.
Finally, in affirming the lower court, the
Fourth Circuit also did not consider any
misrepresentations set forth in the FAC
unless the statement was alleged to have been
spoken directly by either Mr. McAuliffe or Mr.
Rodham. That is, like the lower court, the
court failed to consider any of the
misrepresentations that are imputed to the
Respondents as a matter of law based on their
directing of the daily affairs of the relevant
companies that made the misrepresentations
directly to the Respondents via company
publications, brochures and other direct
communications after the investments took
place, thus invoking a different reliance
scenario than the one that the court actually
addressed.
On June 26, 2019, Petitioners timely
moved for rehearing en banc. On July 9, 2019,
the petition for rehearing was denied. App.
35a.

15
REASONS FOR GRANTING THE WRIT
I.

THIS COURT SHOULD RESOLVE
THE CIRCUIT SPLIT AS TO
WHETHER FEDERAL RULES
REQUIRE PLEADING WITH
PARTICULARITY THE FACTS
SUPPORTING THE RELIANCE
ELEMENT OF COMMON LAW
FRAUD
A.

The Split of Authority on the
Issue of Particularity of
Pleading Reliance Requires
This Court’s Intervention

Citing Miller v. Asensio & Co., 364 F.3d
223, 227 (4th Cir. 2004), in support of its
holding that federal law requires that an
investor “justifiably relied” on misstatement,
App. 26a, the Fourth Circuit appears to have
walked into the same trap that Judge Posner
writing for the Seventh Circuit avoided
altogether in Midwest Commerce Banking Co.
v. Elkhart City Ctr., 4 F.3d 521, 524 (7th Cir.
1993), by holding that a plaintiff is “not
required to allege the facts necessary to show
that the alleged fraud was actionable.”
Indeed, Miller is an after-trial opinion that
involves matters of proof rather than
pleadings. When it comes to pleadings,
however, the Seventh Circuit opined that
neither “allegations demonstrating …
[plaintiff]’s reliance on the defendant’s

16
misrepresentations or omissions” nor “the
reasonableness of that reliance” were
required. Midwest Commerce, 4 F.3d at 524.
The Fourth Circuit, in turn, relied on its
own contrary opinion in Learning Works, Inc.
v. The Learning Annex, Inc., 830 F.2d 541, 546
& n.1 (4th Cir. 1987), where it found
allegations of reliance lacking in particularity
due to plaintiff’s failure to present any
“factual allegations that would support …
[the] claim that … reliance was reasonable,”
considering that plaintiff there ceased its
operations in reliance on the impending sale
despite the fact that the terms of the sale
required it to stay open. In other words, the
complaint there was plainly implausible
without any resort to Rule 9’s particularity
standard—indeed, it would have failed under
the current pleading regime enunciated by
this Court in Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007) (explaining the
plausibility of pleading standard under Rule
8); see also Ashcroft v. Iqbal, 556 U.S. 662,
677-78 (2009) (further elaborating on the
plausibility of pleading standard). Thus,
while Learning Works was couched in terms
of particularity, it was simply implausible on
its face, rendering it inapplicable to the facts
at hand.
Other circuits siding with Judge Posner
include the Fifth Circuit, which recently
tested reliance allegations in support of

17
common law fraud claims by applying this
Court’s plausibility test under Rule 8. See
IAS Servs. Grp., L.L.C. v. Jim Buckley &
Assocs., Inc., 900 F.3d 640, 648 (5th Cir. 2018)
(finding that allegations were “susceptible to
the reasonable inference” that plaintiff relied
on the misrepresentations and finding them
sufficient under Iqbal’s plausibility test).
They also include the First Circuit, which
held that “[t]he specificity requirement [of
Rule 9] extends only to the particulars of the
allegedly misleading statement itself. The
other elements of fraud, such as intent and
knowledge, may be averred in general terms.”
Rodi v. S. New England Sch. Of Law, 389 F.3d
5, 15 (1st Cir. 2004).2
Indeed, this position finds support in Rule
9 itself. While the Fourth Circuit opined that
there was “no textual basis” for the contrary
2 But see, e.g., Great Pac. Sec. v. Barclays
Capital, Inc., 743 F. App’x 780, 782 (9th Cir.
2018) (affirming dismissal of fraud complaint
for lack of pleading particularity on the
reliance element pursuant to Rule 9(b));
Shuker v. Smith & Nephew, PLC, 885 F.3d
760, 778-79 (3d Cir. 2018) (holding that the
“complaint comes up short … because it does
not plead the element of ‘justifiable reliance’
on [defendant]’s misrepresentation with the
particularly required for Rule 9(b)”); Evans v.
Pearson Enterprises, Inc., 434 F.3d 839, 85253 (6th Cir. 2006) (same).

18
view, App. 6a, yet the second sentence of Rule
9(b) allows conclusory allegations of
“conditions of a person’s mind,” which some
courts find to include one’s reliance on
fraudulent misrepresentations. See, e.g., In re
Testosterone Replacement Therapy Prod.
Liab. Litig. Coordinated Pretrial Proceedings,
159 F. Supp. 3d 898, 921 n.5 (N.D. Ill. 2016)
(relying on the second sentence of the rule and
concluding that “Rule 9(b) does not require
plaintiff to plead … plaintiff’s reliance with
particularity”): In re NJOY, Inc. Consumer
Class
Action
Litig.,
No.
CV1400428MMMRZX, 2014 WL 12586074, at
*7 (C.D. Cal. Oct. 20, 2014) (collecting cases
and concluding that “the better view is that
reliance need not be pled with particularity
under Rule 9(b) because it is a condition of the
mind”); Hawkins v. Medtronic, Inc., 62 F.
Supp. 3d 1144, 1156 (E.D. Cal. 2014) (same,
collecting cases); Indiana Bell Tel. Co. v.
Ward, No. IP 02-170-C H/K, 2002 WL
32067296, at *3 (S.D. Ind. Dec. 6, 2002) (“Rule
9(b) applies to the specifics of alleged
misrepresentations, but the notice pleading
requirements of Rule 8 apply to other aspects
of the plaintiff's complaint, such as damages,
reliance, or a defendant’s state of mind.”).

19
B.

The Reliance Allegations in
Petitioners’ Complaint Should
Be Sufficient to Withstand a
Motion to Dismiss

Here, as to the alleged misrepresentations
made directly by each of the Respondents (CA
JA 154-155 at ¶¶ 71-76), the complaint
specifically alleges that all Petitioners relied
on every alleged representation; moreover, it
specifies where and how Petitioners were
exposed to them. Further, the complaint
states that “[e]ach of the Plaintiffs” relied on
“statements … made by Mr. McAuliffe …
[and] Mr. Rodham” and “each of them
reviewed and relied on … statements made by
… Mr. Rodham, or [Mr.] McAuliffe….” CA JA
162 at ¶¶ 103-105. Finally, the complaint also
details actions that Petitioners took to their
detriment in reliance on Respondents’
representations. Thus, Petitioners alleged
that in reliance on the misrepresentations,
they invested in GreenTech, moved to United
States and incurred substantial relocation
expenses,
forwent
other
investment
opportunities that would have delivered
better immigration results, and kept their
investments in GreenTech without seeking
alternative investment vehicles. CA JA 167
at ¶ 144, 182 at ¶¶ 201-203, 184 at ¶¶ 213-216
& 186 at ¶¶ 226-228. Since Petitioners’
allegations must be taken as true at this
point, nothing more should be required.

20
Nevertheless, the Fourth Circuit found
reliance allegations insufficiently particular
because some of the statements at issue “were
made to American media, sometimes of the
local variety,” thus making it unclear “how
and whether” Petitioners “learned of these
statements.” App. 17a-18a. First, this finding
is inapplicable to those statements that were
made during roadshows in China. CA JA 154
at ¶¶ 71-72 & 75. As to those statements, it
is unclear what other particulars could
possibly be required.
Second, as to the statements made
through American media, the Fourth Circuit
specifically acknowledged that one can base
“a meritorious fraud claim” on “statements to
media sources, even local ones in distant
lands,” App. 18a, yet it still found the
allegations lacking because the complaint did
not pinpoint when and how each Petitioner
heard or learned about each of the
representations at issue. To be sure, there is
nothing implausible about Petitioners’
receiving foreign news feeds, such as CNBC
and NBC, in China in their native language.
Indeed, nowhere do Petitioners allege that the
statements were still in English when they
reached them. As such, any supposition that
just because Petitioners could not speak
English, they could not have been exposed to
or relied on the misrepresentations
broadcasted on CNBC, NBC and online,
cannot carry the day on a motion to dismiss;

21
rather, any such doubts should be resolved
through discovery.
Similarly, when and
where
each
Petitioner
received
the
statements—be it at a local Starbucks or in
person—would not advance Respondents’
defenses and, as such, need not be specifically
alleged at this point of litigation.
Finally, as discussed below, the Fourth
Circuit failed to reach group publishing
allegations, which, on their own, would have
sufficed to support a reversal of the dismissal
below. This is because the group publishing
allegations
entail
different
reliance
considerations altogether, since they were
communicated directly to the Petitioners
via company brochures. Thus, for example, in
its November 2015 newsletter, Gulf Coast, the
company directed by Mr. Rodham, stated that
GreenTech’s production would reach 3,000
cars in January 2016, just two months later.
CA JA 167 at ¶ 140. Because GreenTech has
assembled less than 50 cars, and sold no cars,
at the time this statement was made, this
representation was baseless and misleading.
Id. Since all of the Petitioners had invested
in GreenTech (through an entity controlled by
Gulf Coast) by November 2015, they received
this communication directly. CA JA 162-165
at ¶¶ 106-07, 109, 113-18, 120-21, 123, 125,
130 & 132. Similarly, in its April 2016
newsletter, Gulf Coast stated that GreenTech
had already established relationships with
two dealers who were slated to purchase

22
GreenTech’s cars. CA JA 167 at ¶ 143. This
statement was misleading, as GreenTech has
never sold cars through dealers, or otherwise.
Id.; see also id. at ¶ 141 (in the same
newsletter, stating that GreenTech was
making great progress toward its initial
public offering or IPO, even though
GreenTech never had an IPO, and was never
reasonably on target for one, as it never sold
cars and was never on track to sell cars on a
wide enough basis to justify a public offering).
Since all the Petitioners invested in 20122013, they received these communications
directly as well.
In the same vein, in a December 2012 and
a January 2013 newsletter, Gulf Coast stated
that GreenTech had been an approved
supplier for the Department of Defense. This
statement was false and misleading, as
GreenTech was not an approved supplier and
never supplied cars to the Department of
Defense. CA JA 158 at ¶ 89. Moreover, since
eight Petitioners had invested in GreenTech
by
that
time,
they
received
this
communication directly. CA JA 163-164 at ¶¶
113, 114, 116, 119, 121, 122, 123 & 125.
Similarly, in a February 2013 “GTA Project
Annual Review,” Gulf Coast stated it had
received orders for 12,000 electric vehicles
from Europe. CA JA 159 at ¶ 90; see also id.
at
¶¶
93-94
(alleging
additional
misstatements through a March 2013 Gulf
Coast newsletter). This statement was false

23
and misleading because GreenTech never had
significant production and sold few or no cars
in its history. Id. at ¶ 90. At least eight
Petitioners had invested in GreenTech at that
point in time and thus received this
communication directly. CA JA 163-164 at ¶¶
113, 114, 116, 119, 121, 122, 123 & 125.
These direct communications induced
Petitioners that received them to forego
withdrawing from the project and seek
investments
with
better
immigration
chances. CA JA 167 at ¶ 144. As such, this is
as complete and sufficiently detailed of a
picture of the required reliance as one can
possibly get.
***
Courts “must take care not to permit the
more demanding standard of Rule 9(b) to
encroach unduly on the general approach to
pleading that Congress has established in
Rule 8.” Lachmund v. ADM Inv’r Servs., Inc.,
191 F.3d 777, 783 (7th Cir. 1999). The Fourth
Circuit erred by deepening the circuit split on
the wrong side of the law. This Court should
take this opportunity to correct it.

24
II.

THE FOURTH CIRCUIT
MISAPPLIED VIRGINIA LAW BY
FINDING PETITIONERS’
RELIANCE UNJUSTIFIABLE AS
A MATTER OF LAW

Aside from requiring more particularity
than the law demands, the courts below here
misapplied the long-standing cannon of
Virginia law, which excuses justifiable
reliance whenever a buyer is diverted from
making reasonable inquiries into the truth by
the seller’s misrepresentations. See Horner,
207 Va. at 864 (holding that a buyer may
therefore recover for fraud if the seller does or
says anything to divert the buyer “from
making the inquiries and examination which
a prudent man ought to make”); accord Bank
of Montreal, 193 F.3d at 828 n.4 (concluding
that “the Virginia courts have effectively
eliminated the requirement that reliance be
reasonable” in such diversion cases), citing
Van Deusen v. Snead, 247 Va. 324, 329 (1994);
see also Hitachi, 166 F.3d at 629-30 (applying
Virginia’s exception for diversion cases).
It started with the District Court, which
concluded that Petitioners failed to allege
reasonable reliance because they “did not
read” the English-language boilerplate in the
formal documents. App. 8a. Rather, it found,
they “rel[ied] upon contradictory oral
representations, informal newsletters, and
statements contained on websites and social
media” because the latter were all in their

25
native language, Mandarin Chinese. Id. The
District Court concluded that such reliance is
“unreasonable” as a matter of law because the
Petitioners could not conduct a “reasonable
investigation” if they did not translate the
English boilerplate into Mandarin. Id. The
court did not even consider whether the
Petitioners were excused from pleading
justifiable reliance under Virginia law.
The Fourth Circuit affirmed. Addressing
the reliance exception for diversion cases, the
Fourth Circuit said the Petitioners were not
diverted from making a reasonable inquiry
because they were “provided the relevant
offering documents” containing cautionary
language, and “[n]othing … prevented them
from taking the modest step of reviewing the
operative offering documents.” App. 20a. But
this finding is grounded on a factual error
that is not supported by the complaint’s
allegations. The Petitioners were bombarded
with false representations about GreenTech’s
finances,
current
sales,
projections,
regulatory prospects, and customer base
before they invested and received any written
materials
containing
the
cautionary
boilerplate that the Fourth Circuit found to be
so significant. CA JA 150-161 at ¶¶ 60-99.
Most of these representations were in
Petitioners’ native language. The question of
whether a plaintiff fits within Virginia’s
reliance exception by alleging that false
statements in Mandarin were disclaimed in
English is one that demanded greater

26
scrutiny, since the purpose of the exception is
to allow claims in which the investigatory
duty is corrupted by the actions of the alleged
fraudster.
Indeed, by the time Petitioners here
received the written disclosures in English
cautioning them, inter alia, that GreenTech is
a risky investment, they had been already
assured, repeatedly and in their native
language, that GreenTech had started
producing cars, had the requisite number of
employees to satisfy the EB5 requirements,
and pretty much “guaranteed” them
permanent residency. CA JA 150-161 at ¶¶
60-99 (original emphasis). Those assurances
persisted after Petitioners’ investment. CA
JA 166-167 at ¶¶ 136-143. And these were
not just some random “foreigners” that
provided these assurances, as the Fourth
Circuit put it. App. 20a. Rather, these were
highly connected American politicians that
served in the highest echelons of
governmental power.
They touted their
stature as leverage and traded it in for
Petitioners’ trust. There was nothing per se
unreasonable in believing them.
Yet the Fourth Circuit concluded that the
“written offering documents must control,”
even though they were “in fact contradicted”
by Respondents’ “media statements.” App.
18a. But under Virginia law, “one cannot, by
fraud and deceit, induce another to enter into
a contract to his disadvantage, then escape
liability by saying that the party to whom the

27
misrepresentation was made was negligent in
failing to learn the truth.” Nationwide Ins.
Co. v. Patterson, 229 Va. 627, 631 (1985).
Thus, “[w]hen the one inducing the other to
enter the contract throws the other off guard
or diverts him from making the reasonable
inquiries which usually would be made,” the
diverted buyer need not show reliance. Bank
of Montreal, 193 F.3d at 828; accord Horner,
207 Va. at 864.
Moreover, in Bank of
Montreal, the Fourth Circuit itself applied
Virginia law to find that “courts have allowed
the false representation to act as the
‘diversion,’” such that the “same acts of
concealment [may] serve as basis for both
element of fraud and ‘diversion’ exception.”
193 F.3d at 828 n.4. In so doing, the Fourth
Circuit found that “the Virginia courts have
effectively eliminated the requirement that
reliance be reasonable in … [such diversion]
cases.” Id., citing Van Deusen, 247 Va. at 329.
The Fourth Circuit, however, declined to
find
that
any
of
the
alleged
misrepresentations could have plausibly
diverted Petitioners from conducting their
due diligence “before investing” because it
found, as a matter of law, that they had
“information
sufficient”
to
call
the
misrepresentations at issue into question.
App. 18a-19a & 21a. First, this finding is
contrary to the facts as alleged. By the time
Petitioners came to invest and receive the
written
disclosures
with
boilerplate
disclaimers, they had been already assured

28
that GreenTech was a sure thing that
produced cars, had dealers in place to buy
them, and provided the requisite number of
jobs. See Nationwide Ins., 229 Va. at 630-31
(in a diversion case, rejecting defendant’s
argument that plaintiff could not “recover
because he had available the means of
acquiring the correct information about the
meaning of the policy”). It is unclear, under
the Fourth Circuit’s view, why it was the
written disclosures that should have called
into question the oral misrepresentations and
not vice versa.
Second, the Fourth Circuit further erred
by considering only the misrepresentations
encountered by the Petitioners “before
investing.” But the complaint also sets forth
extensive misrepresentations designed to
keep Petitioners from dropping out. CA JA
166-167 at ¶¶ 136-143.3 Even assuming that
the written boilerplate provided “information
sufficient” to trigger due diligence before
investing, then the misrepresentations that
came after the investment provided the
3 The Fourth Circuit’s dicta to the effect that
“the subscription documents did not provide
plaintiffs with a right to withdraw their
money from the partnership,” App. 9a, citing
CA JA 334, is factually incorrect.
The
documents specifically provide for such a
right elsewhere. See, e.g., CA JA 326-327; see
also CA JA 251, 253, 264 & 275.

29
Petitioners with new “information sufficient”
to negate any written boilerplate. This new
information included staged tours of
GreenTech facilities where employees were
instructed to pretend that they were busy
manufacturing cars, as well as assurances
that any government investigations of the
company proved that it was “problem free and
reliable.” CA JA 166 at ¶¶ 137-138. Since
this new information was sufficient in itself to
assuage any preexisting boilerplate claiming
that the investment would be risky, it should
have been enough to allow Petitioners’ fraud
claims to proceed. See, e.g., Van Deusen, 247
Va. at 329 (holding that “[t]he purchasers’
allegation that the sellers took certain
affirmative actions designed to conceal the
defects described in the investigation report is
sufficient” to support the reliance element of
their fraud claims).
Third, Petitioners’ inability to understand
complicated written English documents
should also be a factor in the reliance
analysis. While the Fourth Circuit expressed
concern about the need to create a special rule
for cases involving foreign plaintiffs, App.
20a-21a, no such special rule is required if
Virginia’s diversion exception is to be applied
correctly. Indeed, many other courts excuse
reliance in cases involving foreign plaintiffs
without special rules, by considering the
plaintiffs’ illiteracy in the mix of facts

30
submitted on this element.4 In fact, at least
one court specifically addressed foreign
4 See, e.g., Min Fu v. Hunan of Morris Food
Inc., No. CIV. 12-05871 KM, 2013 WL
5970167, at *6 (D.N.J. Nov. 6, 2013) (where
defendant “misrepresented the contents of the
document” to a Chinese-speaking plaintiff
and “fraudulently included Chinese text” in
the document only after plaintiff signed it, the
“balance between the potential fraud” and
plaintiff’s “potential negligence in signing the
document” was a “question of fact” that was
“premature to consider” on the pleadings);
Semenov v. Hill, 982 P.2d 578, 581 (Utah
1999) (plaintiff’s “language capability” was
“material to his fraud claim” because “the
illiteracy of a party has an important bearing
on the question of the existence of fraud in
procuring [a] signature”); Songwooyarn
Trading Co. v. Sox Eleven, Inc., 213 N.C. App.
49, 55 (N.C. Ct. App. 2011) (complaint
“sufficiently alleged justifiable reliance”
where plaintiff “[was] not fluent in English”
and
thus
“could
not
discover
a
misrepresentation, as the only person …
[plaintiff] could communicate with who had
the information needed was also the party
making the misrepresentation”); Tekstrom,
Inc. v. Savla, No. CIV.A. 05A-12-006JTV,
2006 WL 2338050, at *11-12 (Del. Super. Ct.
July 31, 2006), aff’d, 918 A.2d 1171 (Del. 2007)
(where defendants challenged trial court’s

31
investors’ reliance on oral misrepresentations
that varied the contents of English-language
documents and found that, while plaintiff
possessed documents contradicting those oral
misrepresentations, the fact finder should
consider “the entire context of the
transaction,
including
plaintiff’s
sophistication and business experience.” Qun
v. Karstetter, No. 14-CV-1362-CAB (DHB),
2014 WL 12461260, at *7 (S.D. Cal. Sept. 24,
2014). Since plaintiff in Qun, like the
Petitioners here, had “limited investing
experience, no experience investing in United
States corporations, and tenuous command of
the English language,” the court declined to
dismiss his claims because it could not
“conclude as a matter of law that reasonable
minds could only conclude that plaintiff’s
reliance
on
defendants’
oral
misrepresentations was unreasonable.” Id.
Reasonable reliance is ordinarily a “fact
intensive inquiry.” Gunnells v. Healthplan
holding that reliance was reasonable,
pointing to plaintiff’s “failure to take even the
simplest of steps to protect himself” and
pointed to plaintiff’s “fluency in English and
educational background,” court concluded
reliance was justified because “many of …
[the] misrepresentations—and those most
crucial to … [plaintiff] deciding to come to
Delaware—could not have been clarified
through a cursory examination”).

32
Servs., 348 F.3d 417, 435 (4th Cir. 2003).5 The
Petitioners’ illiteracy in English, though not a
silver bullet, should not be ignored, either.
The Fourth Circuit did not accord due
5 In this connection, courts are also divided
as to whether the element of reliance can be
appropriately resolved as a matter of law on a
motion to dismiss. While the Fourth Circuit
impliedly held that it can, other Circuits
disagree. See, e.g., IAS Servs. Grp., L.L.C. v.
Jim Buckley & Assocs., Inc., 900 F.3d 640, 650
(5th Cir. 2018) (reversing dismissal below and
observing that “[c]ourts have uniformly
treated the issue of justifiable reliance as a
question for the factfinder…. And for good
reason. Justifiable reliance is a fact-intensive
inquiry….”); In re APA Assessment Fee Litig.,
766 F.3d 39, 48 (D.C. Cir. 2014) (“Defendants
seek to prevail at the motion-to-dismiss stage
even though the ‘reasonableness of ... reliance
upon a misrepresentation is a question of fact,
for which disposition by [pre-trial motion] is
generally inappropriate.’”); but see Cresswell
v. Sullivan & Cromwell, 922 F.2d 60, 71 (2d
Cir. 1990) (“The issue of justifiability of
reliance is not one that is inherently
unsuitable for determination as a matter of
law….”). This Court should take up this issue
as well to clarify this important procedural
point, which has far-ranging implications on
the merits, since prematurely dismissing a
case on a factual point essentially denies a
plaintiff her right to a jury trial.

33
consideration to that aspect of the facts under
Virginia law, justifying reexamination
thereof.
III.

“GROUP-PUBLISHED”
MISREPRESENTATIONS THAT
THE FOURTH CIRCUIT FAILED
TO CONSIDER PROVIDE AN
ALTERNATIVE GROUND TO
GRANT THE PETITION

The Fourth Circuit limited itself to
considering two misrepresentations the
complaint attributed to Mr. Rodham and four
attributed to Mr. McAuliffe. App. 5a-6a. Yet
there were many additional alleged
misrepresentations rightly attributable to
each Respondent, which both the Fourth
Circuit and the district court never
considered—even though any of those
additional misrepresentations would have
allowed the case to proceed. Specifically, the
complaint
is
replete
with
alleged
misrepresentations by both Gulf Coast and
GreenTech,
Mr.
Rodham’s
and
Mr.
McAuliffe’s respective employers.
As
corporate insiders and executives in charge of
day-to-day operations for each respective
company, each Respondent is presumed to
have been speaking whenever each of their
respective companies (Gulf Coast for Mr.
Rodham, and GreenTech for Mr. McAuliffe)
put out company statements.
As such,
Respondents bear individual liability for
those statements. The Fourth Circuit erred

34
by failing to reach this alternative ground of
liability.
Cf. Ill. State Bd. of Inv. v.
Authentidate Holding Corp., 369 F. App’x 260,
266 (2d Cir. 2010) (“Because the district court
did not address the individual defendants’
liability under any of the other theories
presented in the [complaint], including
liability for … those [misstatements]
attributable to them under the group pleading
doctrine, we vacate and remand to allow the
district court to consider those claims in light
of our conclusions in this order.”).
A.

This Court Should Take the
Opportunity to Clarify
Application of the Presumption
and Address the Split of
Authority on the Issue

This issue warrants the Court’s attention
because courts are split on applying the
“group publishing” presumption, yet a holding
suggesting that corporate insiders are
immune from
potential liability
for
statements released under their closely-held
firms’ names can be abused. The “grouppublished information” presumption, as
applied in some Circuits, “serves as a
presumption that may be invoked in favor of
a plaintiff,” allowing her to “rely on a
presumption that statements in company
generated documents represent the collective
work of those individuals directly involved in
the company’s daily management.” Dunn v.
Borta, 369 F.3d 421, 434 (4th Cir. 2004)
(original italics). Similarly, when company

35
documents are distributed in connection with
an offer of securities, “no specific connection
between fraudulent representations in the …
[solicitation]
and
particular
[insider]
defendants is necessary.” Luce v. Edelstein,
802 F.2d 49, 55 (2d Cir. 1986); see also
Schwartz v. Celestial Seasonings, Inc., 124
F.3d 1246, 1254 (10th Cir. 1997) (holding that
the Tenth Circuit does not require the
identification of ‘individual sources of
statements ... when the fraud allegations
arise from misstatements or omissions in
group-published documents such as annual
reports, which presumably involve collective
actions of corporate directors or officers”).6
Indeed, this approach is consistent with the
general tort notion that “[a] corporate officer
is individually liable for the torts he
6 Accord In re GlenFed, Inc. Sec. Litig., 60
F.3d 591, 593 (9th Cir. 1995) (holding that for
company statements, “it is reasonable to
presume that these are the collective actions
of the officers. Under such circumstances, a
plaintiff fulfills the particularity requirement
of
Rule
9(b)
by
pleading
the
misrepresentations with particularity and
where possible the roles of the individual
defendants in the misrepresentations.”); In re
Digi Int’l, Inc. Sec. Litig., 6 F. Supp. 2d 1089,
1101 (D. Minn. 1998), aff’d sub nom. In re Digi
Int’l, Inc., Sec. Litig., 14 F. App’x 714 (8th Cir.
2001)
(applying
“group
publication”
presumption).

36
personally commits and cannot shield himself
behind a corporation when he is the actual
participant in the tort.” Columbia Briargate
Co. v. First Nat. Bank in Dallas, 713 F.2d
1052, 1060 n.17 (4th Cir. 1983) (original
italics).
Yet the passage of the Private Securities
Litigation Reform Act of 1995, Pub. L. 104-67,
109 Stat. 737 (“PSLRA”) created a split of
authority on this issue. Some courts ceased
applying the presumption because they
conflate it with the group pleading doctrine.
Thus, for example, the Fifth Circuit in
Southland Sec. Corp. v. INSpire Ins. Sols.,
Inc., 365 F.3d 353, 363-64 (5th Cir. 2004),
rejected the previously adopted group
publishing doctrine by conflating it with
pleading collective scienter, which is part of
the group pleading doctrine that has nothing
to do with attribution of company statements
to those that are presumably responsible for
them. As a result, the Fifth Circuit concluded
that the group publishing could not survive
the PSLRA, since the statute “requires …
plaintiffs to distinguish among those they sue
and enlighten each defendant as to his or her
particular part in the alleged fraud.” Id.;
accord Winer Family Tr. v. Queen, 503 F.3d
319, 324 (3d Cir. 2007); but see Berry v.
Valence Tech., Inc., 175 F.3d 699, 706 (9th Cir.
1999) (reasserting application of the group
publishing doctrine in the Ninth Circuit after

37
the passage of the PSLRA).7 Since there is
disagreement between courts as to whether
group pleading survives PSLRA, the group
publishing presumption got swept up in the
resulting wreckage.8 This Court declined to
7 Clearly, courts declining to apply the
presumption elevate form over substance. If
one element of the scheme involved group
activity or statements, it makes little sense to
preclude plaintiffs from pleading as much.
Taken to its extreme, such a requirement
could immunize fraudulent group conduct if:
(i) plaintiffs are loath to attribute to an
individual that which is more accurately
attributable to a group; and (ii) plaintiffs are
precluded from accusing the group.
8 Lower courts exhibit confusion on the
issue to this day. Compare In re TransCare
Corp., 592 B.R. 272, 287-88 (Bankr. S.D.N.Y.
2018) (recognizing the group publishing
presumption as a valid doctrine), with In re
Banco Bradesco S.A. Sec. Litig., 277 F. Supp.
3d 600, 640-41 (S.D.N.Y. 2017) (stating that
the doctrine is invalid after PSLRA yet
approving attribution of company statements
to the executives that bore the ultimate
authority for the statements); see also Aviva
Life & Annuity Co. v. Davis, 20 F. Supp. 3d
694, 707 (S.D. Iowa 2014) (concluding that
group publishing doctrine is alive and well
despite the PSLRA and this Court’s decision
in Janus Capital Grp., Inc. v. First Derivative

38
address the PSLRA wrinkle by limiting itself
to stating that “there is disagreement among
Traders, 564 U.S. 135, 142 (2011), which was
limited to issues of primary and secondary
liability); In re Baan Co. Sec. Litig., 103 F.
Supp. 2d 1, 17 (D.D.C. 2000) (reasoning that
group publication doctrine applies to
attribute misrepresentations but PSLRA
requires scienter to be pleaded as to each
defendant); In re Raytheon Sec. Litig., 157 F.
Supp. 2d 131, 152 (D. Mass. 2001) (observing
that “a majority of courts facing the issue
have determined that the group …
[publishing] doctrine does in fact survive the
passage of the PSLRA”); but see Local
295/Local 851 IBT Employer Grp. Pension
Tr. & Welfare Fund v. Fifth Third Bancorp.,
731 F. Supp. 2d 689, 719 (S.D. Ohio 2010)
(analyzing the presumption as group pleading
and holding that it did not survive the
passage of PSLRA), and In re Fed. Nat’l
Mortg. Ass’n Sec., Derivative, & “ERISA”
Litig., 503 F. Supp. 2d 25, 40 (D.D.C. 2007)
(declining to attribute company statements to
company insiders because “it seems to this
Court that the requirement in the plain
language of the PSLRA of a showing of
scienter on the part of each defendant trumps
any reliance on the ‘group pleading doctrine,’
and, thus, requires plaintiffs to allege specific
facts demonstrating that each of the
defendants acted with the requisite state of
mind”).

39
the Circuits as to whether the group pleading
doctrine survived the PSLRA….” Tellabs, Inc.
v. Makor Issues & Rights, Ltd., 551 U.S. 308,
326 n.7 (2007) (also noting that “the
Shareholders do not contest the Seventh
Circuit’s determination [on application of
group pleading], and we do not disturb it”).
Yet the statement necessarily implies that
but for the PSLRA and the complications it
may or may not create for scienter allegations
supporting federal securities fraud claims,
the doctrine is otherwise valid—and, at the
very least, should allow Petitioners’ two
common law fraud-based claims to rely on
company statements at issue here.
Most importantly, however, the group
pleading split should not even affect
application of the “group publishing”
presumption at issue here. This is because
PSLRA deals with scienter, and “the [group
publishing] doctrine has nothing to do with
scienter.
Rather, it is a reasonable
presumption that the contents of companypublished documents and press releases are
attributable to officers and directors with
inside knowledge of and involvement in the
day-to-day affairs of the company.” In re
BankAmerica Corp. Sec. Litig., 78 F. Supp. 2d
976, 988 (E.D. Mo. 1999). This is exactly why
even those courts that rely on PSLRA to reject
group pleading for scienter allegations still
find the “group publishing” presumption
“permissible and useful when pleading
conduct and omissions,” which is what

40
Petitioners did here. In re Thornburg Mortg.,
Inc. Sec. Litig., 695 F. Supp. 2d 1165, 1200
(D.N.M. 2010), aff’d sub nom. Slater v. A.G.
Edwards & Sons, Inc., 719 F.3d 1190 (10th
Cir. 2013); accord Durgin v. Mon, 659 F.
Supp. 2d 1240, 1253 (S.D. Fla. 2009), aff’d,
415 F. App’x 161 (11th Cir. 2011).
Allowing corporate insiders to hide behind
company statements with impunity sets a
dangerous precedent.
As the Virginia
Supreme Court specifically forewarned long
ago, limiting liability to the company itself
“would in many instances afford immunity to
the chief offenders, the officers of the
corporation, without whose assistance it
would be impossible for the corporation to
engage in the prohibited business.” Crall v.
Com., 103 Va. 855, 49 S.E. 638, 640 (1905).
This Court should take this opportunity to
affirm the “group publishing” presumption
that prevents such a result. It should also
clarify the law to distinguish company
statements from group pleading for purposes
of scienter, as there is wide-spread confusion
among the courts below on this important
issue.
B.

Petitioners Alleged Sufficient
Facts to Hold Both
Respondents Responsible for
Their Respective Company
Statements

Here, the complaint presents extensive
allegations that Mr. Rodham and Mr.

41
McAuliffe controlled and directed the affairs
of Gulf Coast and GreenTech, respectively.
Thus, Petitioners alleged, inter alia, that
Rodham operated and controlled Gulf Coast
and the companies that controlled GreenTech
(specifically, A-3 partnership and its general
partner, A-3 GP, LLC (“A-3 GP”)) as the
President and CEO of each company. CA JA
142 at ¶ 16, 168 at ¶ 148 & 179 at ¶ 189. The
allegations specify that he “managed each
company’s day to day operations, had full and
complete knowledge of all of … [their]
conduct, and actively participated in the
affairs” of these companies; moreover,
Rodham “was aware of, and directed, all of the
statements
and
conduct
of
those
companies….” CA JA 168 at ¶ 148 & 179 at ¶
189. In addition, the allegations further
provide that Rodham recruited Chinese
investors and took primary responsibility for
structuring the investments. CA JA 148 ¶ 56.
Similarly,
Petitioners
alleged
that
McAuliffe co-founded GreenTech and served
as its Chairman; moreover, he was
GreenTech’s largest shareholder at all
relevant times. CA JA 142 at ¶ 15, 161 at ¶
99 & 180 at ¶ 193. The allegations specify
that he “was aware of, and ultimately
responsible
for,
GreenTech’s
major
initiatives, including the raising of EB-5
investment from investors … and the
marketing thereof, and actively participated
in GreenTech’s affairs.” CA JA 180 at ¶ 193.
Likewise, he served as the face of the

42
GreenTech operation and marketed his name
and image to attract investors such as
Petitioners here. CA JA 153 at ¶ 70 & 161 at
¶ 99.
Accordingly, Rodham should have been
deemed to be the speaker whenever Gulf
Coast or GreenTech put out their public
statements, and these statements should
have
considered
when
measuring
particularity of the individual fraud claims
asserted against Rodham. For the same
reasons,
Petitioners’
allegations
of
misrepresentations by GreenTech should
have been part of the analysis when
measuring particularity of the individual
fraud claims asserted against McAuliffe.
These allegations include Gulf Coast’s
“guarantee[] [of] permanent residency”
to EB-5 investors via a June 2010 brochure,
its representation that EB-5 investment
made up only 7.8% of GreenTech’s financing
in the same brochure, its statement that the
capital
invested
in
GreenTech
was
guaranteed against loss in the same brochure,
and its representation that investors would be
the “first to harvest benefits and the last to
bear risks” should the company file for
bankruptcy. CA JA 151-152 at ¶¶ 63-67
(original emphasis); see also CA JA 156-157 at
¶¶ 80-83, 158-159 at ¶¶ 89-91 & 159 at ¶ 93
(setting forth additional allegations of various
Gulf Coast’s misrepresentations and the facts
showing
their
falsity,
including
representations concerning the number of

43
jobs created and cars sold). All of these
statements were false: first, there was no
basis to guarantee permanent residency in
June 2010, and many GreenTech investors
have not obtained permanent residency;
second, EB-5 investment made up the
majority of GreenTech’s financing; and third,
EB-5 guidelines actually require the
investment to be at risk, and there is no
guarantee that investors would better off
than regular creditors come bankruptcy time.
CA JA 151-152 at ¶¶ 63-67.
Similarly, Petitioners alleged various
misrepresentations by GreenTech, such as,
for
example,
certain
concealing
misrepresentations designed to cover up the
alleged fraud, including statements in 2013
that certain government investigations
confirmed GreenTech to be problem free and
reliable (which was false because the
investigations
actually
concluded
the
opposite). CA JA 166 at ¶ 138. All of these
alleged misstatements provide additional
sufficient basis for Petitioners’ fraud claims
against both Respondents.

44
CONCLUSION
For the foregoing reasons, the Court
should grant the petition for a writ of
certiorari.

Respectfully submitted,
Marina V. Bogorad
Counsel of Record
Gerard Fox Law P.C.
1880 Century Park East,
Suite 1410
Los Angeles, California
90067
(310) 441-0500
mbogorad@gerardfoxlaw.
com

October 3, 2019

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FOURTH
CIRCUIT, FILED JULY 17, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2194
XIA BI; NIAN CHEN; YING CHENG;
CHUNGSHENG LI; LIN LIN; LAN LIU; MEIMING
SHEN; YUNPING TAN; BIXIANG TANG; YAHONG
WANG; YUE WANG; JIAN WU; JUNPING YAO;
XUEMEI ZHANG; YAN ZHAO,
Plaintiffs-Appellants,
and
YUANYUAN CHEN; JUN HUANG; KUI LE;
ZHONGHUI LI; CHUN WANG; RUI WANG;
LEI YAN; JIN YOU; ZHEN YU; HOUQIAN YU;
NIANQING ZHANG; HUIBIN ZHAO,
Plaintiffs,
v.
TERRY MCAULIFFE; ANTHONY RODHAM,
Defendants-Appellees
and
XIAOLIN “CHARLES” WANG; DOES 1-100,
Defendants.

2a
Appendix A
May 7, 2019, Argued;
June 12, 2019, Decided
Designation of Appellants
Amended: July 17, 2019
Appeal from the United States District Court for
the Eastern District of Virginia, at Alexandria. (1:17-cv01459-CMH-IDD). Claude M. Hilton, Senior District
Judge.
Before WILKINSON and NIEMEYER, Circuit
Judges, and DUNCAN, Senior Circuit Judge.
WILKINSON, Circuit Judge:
Twenty-seven Chinese investors appeal from the
dismissal of their claims against Terry McAuliffe and
Anthony Rodham stemming from failed investments in
an electric vehicle startup. For the reasons that follow,
we affirm.
I.
A.
We accept as true the following facts, which come from
plaintiffs’ amended complaint. Plaintiffs-Appellants are
a group of twenty-seven Chinese citizens who invested
$500,000 each in a partnership that loaned their money
to GreenTech Automotive. GreenTech, founded in 2008,
was a Mississippi corporation that wanted to enter the

3a
Appendix A
hybrid and electric vehicle markets. Initially, GreenTech
planned to produce the “MyCar,” a vehicle that would
travel at low speeds and thus be subject to lower levels of
regulatory scrutiny.
This ambitious plan required a great deal of capital.
GreenTech sought to raise some funds from foreign
investors who might qualify under the EmploymentBased Immigration Fifth Preference, or EB-5, Program.
See 8 U.S.C. § 1153(b)(5). This program offered a path
to permanent residency for foreign investors whose
investments in American projects created or preserved at
least ten jobs for American workers. While the program
ordinarily required a $1 million investment, investments
of $500,000 in certain rural areas or areas with high
unemployment may also qualify under the EB-5 program.
GreenTech thus planned to build a new manufacturing
facility in Tunica, Mississippi to take advantage of the
lower investment threshold. The company collected funds
from potential EB-5 immigrants through several different
investment platforms. Some Chinese investors, for example,
purchased preferred shares directly from GreenTech. The
plaintiffs in this lawsuit, however, invested their money
in GreenTech Automotive Partnership A-3, LP (the “A-3
partnership”), which was created to collect capital and
then loan it to GreenTech. Plaintiffs’ investments were
governed by a series of documents, including “the private
placement memorandum, the subscription agreement,
the limited partnership agreement, a construction loan
agreement, [and] a power of attorney agreement.” J.A.
155. These documents were distributed to plaintiffs in
English only, not Chinese.

4a
Appendix A
Plaintiffs allege that they signed the subscription
documents “without reviewing any version” and do not
claim to have translated the documents into their native
language. Id. at 181, 186. Pursuant to those written
agreements, each of the twenty-seven plaintiffs paid
$500,000 for a partnership share in A-3 sometime between
July 2012 and December 2013. They each also remitted
an “Administrative Fee” of $60,000 or $61,000 to Gulf
Coast Funds Management, LLC, a GreenTech affiliate
that managed the A-3 partnership.
In total, the A-3 partnership collected $500,000 from
each of eighty-six investors, and then loaned the total of
about $43 million to GreenTech. The loan terms were
“not the result of arm’s length negotiations.” Id. at 169.
The Private Placement Memorandum reveals that the
loan, which was non-recourse, “specifically exclude[d]
customary provisions designed to protect the interests of
lenders.” Id. at 278. GreenTech would make interest-only
payments to the A-3 partnership at a 4% interest rate; of
that amount, 1.5% would be used to pay Gulf Coast yearly
management fees. Id. at 257.
Defendants-appellees are Terry McAuliffe and
Anthony Rodham.1 McAuliffe was the co-founder and
former Chairman of GreenTech. Rodham was the CEO
of both the A-3 partnership and another entity that was
formed to serve as A-3’s general partner, GreenTech
1. We note that defendant Anthony Rodham passed away on
June 7, 2019. Inasmuch as plaintiffs have failed to prevail against any
appellee in this action, his passing has no bearing on the resolution
of this appeal.

5a
Appendix A
Automotive Capital A-3 GP, LLC. Rodham also served
as President and CEO of Gulf Coast, the management
company that received plaintiffs’ administrative fees.
Plaintiffs claim that Rodham and McAuliffe made a
series of false statements relating to the A-3 partnership’s
fundraising efforts. The complaint alleges that Rodham
made the following misstatements:
(1) On April 25, 2011, Rodham claimed that
EB-5 funds accounted for only 7.8% of
GreenTech’s capital during an event in
Beijing, China.
(2) At this same event, Rodham expressed that
Gulf Coast “chose” GreenTech as a suitable
investment.
The complaint alleges that these statements were false
because (1) far more than 7.8% of GreenTech’s funds came
from EB-5 investors; and (2) Gulf Coast could not choose
GreenTech since they were under joint ownership and
management.
The plaintiffs also allege that McAuliffe made four
misstatements:
(1) On November 11, 2011, McAuliffe told a
CNBC interviewer that GreenTech “ha[d]
only sold 11,000 cars, but it’s still a new
business for us.” J.A. 154.

6a
Appendix A
(2) On January 14, 2012, McAuliffe informed
Jan Paynter during an interview that
GreenTech’s first-year’s production of
electric vehicles would be sold to the country
of Denmark.
(3) On July 23, 2012, McAuliffe said in an
interview with three Chinese reporters that
GreenTech was the first corporation to mass
produce low-speed electric cars.
(4) On December 5, 2012, McAuliffe stated in
an interview with a local NBC station that
GreenTech “had a thousand employees.”
J.A. 155.
The complaint alleges that each of those statements was
false when made because GreenTech (1) had not sold
11,000 cars; (2) did not have a contract with Denmark; (3)
had not mass-produced any electric vehicles; and (4) had
fewer than one hundred employees.
Plaintiffs allege that they each “relied on some or
all of the statements in these newsletters, statements on
GreenTech’s websites and social media, and statements
made by Mr. McAuliffe [and] Mr. Rodham . . . during
roadshows, in interviews, and in written materials they
authorized before signing the subscription agreement . . . .”
J.A. 162. But there are no specific allegations that any
individual plaintiff encountered any of those alleged
misstatements in promotional materials or on Greentech’s
website. Twenty-two plaintiffs, moreover, allege that they

7a
Appendix A
moved to the United States on provisional visas in reliance
on defendants’ misrepresentations.
GreenTech, along with a web of related corporate
entities, eventually failed to manufacture and sell vehicles
according to its business plan. GreenTech defaulted on
the loan from the A-3 partnership, and the plaintiffs have
not recovered their $500,000 investments. As of the filing
of the amended complaint, GreenTech and several of the
related entities had filed for bankruptcy. Plaintiffs now
seek, inter alia, to recover the losses from their failed
investments in the A-3 partnership.
B.
Plaintiffs filed their original complaint in Virginia
state court. After removing the suits to the Eastern
District of Virginia, McAuliffe and Rodham filed motions
to dismiss. The district court granted the motions under
Federal Rule of Civil Procedure 12(b)(6). With respect to
the fraud claims so central to the complaint, it held that
the plaintiffs had failed “to identify the facts needed to
adequately plead claims . . . with particularity,” J.A. 134,
including allegations over “the manner in which [any false
statements] misled the plaintiff[s], and the manner in
which plaintiff[s] relied on the statements.” Id. at 133-34.
Plaintiffs were allowed twenty days to file an amended
complaint.
The amended complaint honed plaintiffs’ allegations
by reducing the number of claims and dropping from the
case several corporate defendants, which by that point had

8a
Appendix A
filed for bankruptcy and thus stayed any actions against
them. The amended complaint raised claims against
both McAuliffe and Rodham for fraud in the inducement
(Count I); fraud (Count II); federal securities fraud
(Count III); and conspiracy to commit fraud and breach
fiduciary duties (Count VII). Plaintiffs also brought claims
against Rodham for breach of fiduciary duty (Count IV);
accounting (Count V); aiding and abetting a breach of
fiduciary duty (Count VI); unjust enrichment (Count VIII);
and negligence (Count IX).
McAuliffe and Rodham again moved to dismiss the
claims against them for failure to state a claim under
Rule 12(b)(6). And the district court again granted the
motion, this time with prejudice. As to the fraud claims,
the court noted that “[p]laintiffs do not state which of the
named [p]laintiffs claims to have relied on each statement,
or where or how any specific [p]laintiff heard or learned
of the alleged statements.” J.A. 478-79. For that reason,
plaintiffs still had failed to plead reliance with the
particularity required under the Rules of Civil Procedure.
See Fed. R. Civ. P. 9(b). The court also noted that any
reliance on the alleged misstatements was unreasonable
because plaintiffs by their own admission did not read or
review the offering documents.
The court also dismissed the claims for breach of
fiduciary duty, unjust enrichment, and negligence because
plaintiffs were not the appropriate party to bring these
claims, which properly should have been brought by the
partnership itself or as derivative claims. The subscription
documents included a Delaware choice-of-law provision.

9a
Appendix A
See J.A. 351. Whether a claim is direct or derivative under
Delaware law turns on whether the partnership suffered
the alleged injury and whether it would receive the benefit
of any recovery. El Paso Pipeline GP Company, L.L.C. v.
Brinckerhoff, 152 A.3d 1248, 1256-65 (Del. 2016).
As the district court put it, “[p]laintiffs still lack
standing to assert such a claim . . . because any alleged
injury that was suffered was suffered by the Limited
Partnership and not by the [p]laintiffs directly” and
because “[a]ny recovery to be had would be to the Limited
Partnership and not to the individual [p]laintiffs.” J.A. 48182, 483-84. This was true, in part, because the subscription
documents did not provide plaintiffs with a right to
withdraw their money from the partnership. See J.A. 334.
The aiding and abetting a breach of fiduciary duty claim
failed for the same reason. The district court dismissed
the conspiracy claim along with the underlying breach of
fiduciary duty and fraud claims. Finally, it dismissed the
accounting claim because plaintiffs asserted no right to an
accounting under the partnership agreement. Plaintiffs
now appeal the district court’s order dismissing their
claims. 2
2. The appeal chiefly concerns fraud claims based on alleged
misstatements by Rodham and McAuliffe. We have reviewed the
record and affirm the dismissal of plaintiffs’ other claims for the
reasons stated by the district court. With respect to plaintiffs’
federal securities fraud claim, while we do not endorse the district
court’s statement that “the PSLRA[] prohibits the amendment of
complaints,” J.A. 480-81, the district court did in fact allow the
complaint to be amended and any additional amendments would have
been futile for the reasons set forth herein.

10a
Appendix A
II.
Review of the district court’s dismissal involves the
special pleading standards applicable to claims of fraud.
All complaints in federal court must, at a minimum, “state
a claim to relief that is plausible on its face.” Ashcroft v.
Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d
868 (2009) (quoting Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)).
Federal Rule of Civil Procedure 9(b) heightens pleading
standards for claims of fraud, so that “a party must
state with particularity the circumstances constituting
fraud,” except that “conditions of a person’s mind may be
alleged generally.” Fed. R. Civ. P. 9(b). Plaintiffs’ federal
securities fraud claim must also comply with the Private
Securities Litigation Reform Act of 1995, Pub. L. No. 10467, 109 Stat. 737. The PSLRA leaves in place the general
requirements of Rule 9(b), but requires pleadings to
demonstrate, inter alia, “the reason or reasons why [each
alleged] statement is misleading” and to provide facts
“giving rise to a strong inference” of scienter. 15 U.S.C.
§ 78u-4(b); see Teachers’ Ret. Sys. of La. v. Hunter, 477
F.3d 162, 172 (4th Cir. 2007).
A.
Plaintiffs bring both common law fraud claims under
Virginia law and statutory fraud claims under federal
law, here Rule 10b-5. See 15 U.S.C. § 78j; 17 C.F.R.
§ 240.10b-5 (Rule 10b-5). There are, no doubt, important
legal differences between federal and state fraud claims.
The state claims, for example, need not involve the

11a
Appendix A
“purchase or sale of a security” as required under Rule
10-5. Stoneridge Inv. Partners, LLC v. Sci.-Atlanta, 552
U.S. 148, 157, 128 S. Ct. 761, 169 L. Ed. 2d 627 (2008). Rule
10b-5 claims, moreover, sometimes rely on legal theories
that may not be available as a matter of Virginia common
law. Compare Erica P. John Fund, Inc. v. Halliburton
Co., 563 U.S. 804, 131 S. Ct. 2179, 180 L. Ed. 2d 24 (2011)
(applying the fraud-on-the-market theory), with Fentress
Families Tr. v. Va. Elec. & Power Co., 81 Va. Cir. 67 (2010)
(rejecting application of that theory).
This case, however, bottoms out on shared features
of the state and federal fraud claims. Both federal and
state law require that each defendant made a material
misstatement. See Stoneridge, 552 U.S. at 157; Owens v.
DRS Auto. Fantomworks, Inc., 288 Va. 489, 764 S.E.2d
256, 260 (Va. 2014). To support recovery on any theory,
moreover, plaintiffs must have justifiably relied on those
same misstatements. See Miller v. Asensio & Co., Inc.,
364 F.3d 223, 227 (4th Cir. 2004) (federal securities law);
Jared & Donna Murayama 1997 Tr. v. NISC Holdings,
LLC, 284 Va. 234, 727 S.E.2d 80, 86 (Va. 2012) (Virginia
common law). It is to these common elements that we now
turn.
B.
First, we consider whether the complaint alleges
material misstatements. Defendants argue that some of
their alleged statements cannot be material misstatements
as a matter of law. They note that “an action based upon
fraud must aver the misrepresentation of present pre-

12a
Appendix A
existing facts, and cannot ordinarily be predicated on
unfulfilled promises or statements as to future events.”
Abi-Najm v. Concord Condo., LLC, 280 Va. 350, 699
S.E.2d 483, 490 (Va. 2010) (internal quotation marks
omitted); see Raab v. General Physics Corp., 4 F.3d 286,
289-90 (4th Cir. 1993) (forward-looking statements are
often immaterial under federal securities law). Similarly,
courts have long accepted that immaterial boasting and
exaggerations, often called puffery, do not normally
constitute actionable fraud. See Longman v. Food Lion,
Inc., 197 F.3d 675, 685 (4th Cir. 1999) (federal securities
law); Tate v. Colony House Builders, Inc., 257 Va. 78, 508
S.E.2d 597, 600 (Va. 1999) (Virginia common law).
The above rules serve important purposes. Forwardlooking statements provide valuable information for
investors in the securities marketplace, and they allow
contracting parties to make better-informed judgments.
But as Yogi Berra obser ved, “It’s tough to make
predictions, especially about the future.” Even the most
careful projections will sometimes prove wrong. Pinning
liability on forward-looking statements would risk an
influx of lawsuits concerning every major event, and would
shut valuable projections entirely out of the market. See 15
U.S.C. § 78u-5(c) (federal safe harbor for forward-looking
statements by certain issuers and their affiliates).
Puffery, too, serves an important role in the formation
of contracts large and small. There is little doubt that
expressions of enthusiasm and use of superlatives are
common tools for skilled salespersons. See J.A. 155
(McAuliffe describing GreenTech as a “great American

13a
Appendix A
success story”). These sorts of statements can help inspire
confidence and trust when those qualities are in short
supply, and ultimately serve to encourage the free flow
of capital in the marketplace. There is, in the end, little
reason to purge the market of all optimism. Projections and
puffery will thus rarely qualify as material misstatements
under federal and state law. See Longman, 197 F.3d at
685; Tate, 508 S.E.2d at 600.
The problem for defendants, however, is that their
alleged misstatements go beyond mere projections
or puffery. Rodham, for example, said that EB- 5
funds accounted for only 7.8% of GreenTech’s capital.
This statement was not an expression of optimism or
speculation as to who might invest in the future; it was
an assertion about what funds had been raised in the
past. McAuliffe’s alleged misstatements were even more
aggressive. GreenTech either had “sold 11,000 cars,”
or it had not; it had “a thousand employees,” or not;
and it had mass-produced electric cars, or not. Those
statements were plainly not forward-looking. See Malone
v. Microdyne Corp., 26 F.3d 471, 472-80 (4th Cir. 1994)
(discussing forward-looking statements).
Even McAuliffe’s alleged statement that the first
year of vehicle production would be sold to the country of
Denmark, which at first blush describes a future event,
fails closer inspection. Read in the light most favorable
to the plaintiffs, this is no simple statement of opinion or
future intent; it claims that a named buyer had agreed to
purchase specific vehicles at a particular time. Plaintiffs’
allegation thus counts as an assertion of fact under the

14a
Appendix A
case law in this circuit. See Raab, 4 F.3d at 289-90.
In toto, defendants’ statements ran in front of the
facts on the ground. There are no laurels in this case,
no accolades to be bestowed. These are just the sort of
misstatements targeted by statutory and common law
fraud causes of action. False information is not useful
to the market, and may lead investors to commit their
resources in ways that will prove harmful. See Rubin v.
Coors Brewing Co., 514 U.S. 476, 496, 115 S. Ct. 1585, 131
L. Ed. 2d 532 (1995) (Stevens, J., concurring in judgment).
Far from building investor confidence, misstatements
like those alleged in this case undermine public trust.
We decline to whitewash the alleged misstatements here.
C.
Defendants also argue that plaintiffs have failed
to adequately plead justifiable reliance on the alleged
misstatements. We agree with the district court that
plaintiffs’ complaint falls far short of plausibly pleading
justifiable reliance.
1.
Under Virginia common law, plaintiffs must allege
“reasonable or justifiable reliance” on a defendant’s
misrepresentations. Murayama 1997 Tr., 727 S.E.2d at
86 (internal quotation marks omitted). “[T]he touchstone
of reasonableness” under Virginia law “is prudent
investigation.” Hitachi Credit Am. Corp. v. Signet Bank,
166 F.3d 614, 629 (4th Cir. 1999). Federal law similarly

15a
Appendix A
requires that an investor “justifiably relied” on particular
misstatements in an action under Rule 10b-5. Miller, 364
F.3d at 227 (internal quotation marks omitted). As with
Virginia common law, federal securities law “requires
plaintiffs to invest carefully” and conduct at least “minimal
diligence.” Banca Cremi, S.A. v. Alex. Brown & Sons, Inc.,
132 F.3d 1017, 1028 (4th Cir. 1997) (internal quotation
marks and alterations omitted). Plaintiffs cannot recover,
in other words, if they “possess[] information sufficient
to call a misrepresentation into question but nevertheless
close [their] eyes to a known risk.” Id. (internal quotations
marks and alterations omitted).
Plaintiffs invite the court to assess the element
of justifiable reliance without turning to Rule 9(b)’s
heightened pleading standards. See Fed. R. Civ. P. 9(b).
But our circuit has previously held that “[r]easonable,
detrimental reliance upon a misrepresentation is an
essential element of a cause of action for fraud . . . and such
reliance must be pleaded with particularity.” Learning
Works, Inc. v. The Learning Annex, Inc., 830 F.2d 541,
546 (4th Cir. 1987) (citing Rule 9(b)). Indeed, Rule 9(b)
itself provides that “a party must state with particularity
the circumstances constituting fraud . . . .” Fed. R. Civ. P.
9(b). How and whether a party relied on a misstatement is
every bit as much a “circumstance[] constituting fraud” as
any other element. Id. And when Congress or the Federal
Rules intend for an element of fraud to be pleaded under
a different standard, they tell us so explicitly. Rule 9(b),
for example, specifically instructs that “[m]alice, intent,
knowledge, and other conditions of a person’s mind
may be alleged generally.” Id. Plaintiffs can point to no

16a
Appendix A
similar language placing the element of reliance beyond
the reach of Rule 9(b). With equal clarity, the PSLRA
requires pleadings to include facts “giving rise to a strong
inference” of scienter, 15 U.S.C. § 78u-4(b), while leaving
Rule 9(b)’s background pleading standards in place for
the other elements of fraud. See Hunter, 477 F.3d at 172.
There is, in sum, no textual basis to give plaintiffs extra
wiggle room in pleading the reliance elements of their
state and federal fraud claims.
The plaintiffs’ argument also fails as a matter of
common sense. Rule 9(b) seeks “to provide defendants with
fair notice of claims against them and the factual ground
upon which they are based . . . .” McCauley v. Home
Loan Inv. Bank, F.S.B., 710 F.3d 551, 559 (4th Cir. 2013).
This rationale applies with special force to allegations of
reliance, which inherently rest on information within a
plaintiff’s possession. See Evans v. Pearson Enters., Inc.,
434 F.3d 839, 852-53 (6th Cir. 2006). Whereas defendants
are likely to know facts that will allow them to contest the
falsity of their own statements or their own state of mind,
they have little reason to know how a plaintiff learned of
any misstatements or what role they played in a plaintiff’s
investment decisions. Particular allegations of reliance
thus lie at the core of Rule 9(b)’s mandate.
2.
Plaintiffs’ complaint fails to adequately plead
justifiable reliance, instead relying only on general and
conclusory allegations. Paragraph 103 of the amended
complaint provides a prime example:

17a
Appendix A
Each of the Plaintiffs relied on some or all of
the statements in these newsletters, statements
on GreenTech’s websites and social media, and
statements made by Mr. McAuliffe [and] Mr.
Rodham . . . during roadshows, in interviews,
and in written materials they authorized
before signing the subscription agreement and
transferring their $500,000 investment and
$60,000 or $61,000 Administrative Fee.
As the district court noted, “[p]laintiffs do not state
which of the named [p]laintiffs claims to have relied on
each statement, or where or how any specific [p]laintiff
heard or learned of the alleged statements.” J.A. 478-79.
The only information provided that is specific to any given
plaintiff is the individual’s name, citizenship, current
residence, and the dates of his subscription agreement
and money transfer. A list of names and investment dates
may be important, but it does nothing to show how any
plaintiff learned of a given misstatement, or whether
any plaintiff even relied on a given misstatement at all.
The district court was correct to dismiss the complaint
because these general allegations do not satisfy us that
the plaintiffs have “substantial prediscovery evidence of
those facts.” Harrison v. Westinghouse Savannah River
Co., 176 F.3d 776, 784 (4th Cir. 1999).
The facts of this case make those omissions particularly
glaring. Most of the alleged misstatements, for example,
were made in English—a language that many of the
plaintiffs allege they do not understand. What is more,
many of those alleged misstatements were made to

18a
Appendix A
American media, sometimes of the local variety. It is far
from clear how or whether plaintiffs learned of these
statements. This is not to say that statements to media
sources, even local ones in distant lands, cannot form
the basis of a meritorious fraud claim. Far from it. We
live in a day and age where news travels fast and vast
amounts of information are easily accessible online. But
the realities of the Internet do not alter the fundamental
need for plaintiffs to plead reliance with particularity,
and the amended complaint falls short of that bedrock
requirement.
Even if plaintiffs had properly described who relied on
each misstatement and how that person heard of it, they
fail to plead justifiable reliance. Investments often boil
down to a series of written contracts. In this case, those
contracts included “the private placement memorandum,
the subscription agreement, the limited partnership
agreement, a construction loan agreement, [and] a power
of attorney agreement.” J.A. 155. The written offering
documents must control, and here they in fact contradicted
the sorts of stray media statements attributed to Rodham
and McAuliffe.
The Private Placement Memorandum, for example,
made clear that GreenTech was “a development stage
company,” J.A. 243, that was raising money to “design,
build, and commence production” of vehicles at a new
production facility, J.A. 274 (emphasis added). It also
warned that the underlying loans from the partnership to
GreenTech did “not contain market terms and specifically
exclude[d] customary provisions designed to protect the

19a
Appendix A
interests of lenders.” Id. at 278. It said, in all capital letters,
that “AN INVESTMENT IN THE PARTNERSHIP IS
SPECULATIVE AND INVOLVES A SIGNIFICANT
DEGREE OF RISK.” J.A. 237. It also described how
GreenTech had already raised capital from investors under
the EB-5 program, id. at 275, and that “[n]o assurance
can be given that an investor will receive a conditional or
permanent lawful resident status in the U.S. or that an
investment in the Partnership will comply with the EB-5
[p]rogram,” J.A. 259 (internal emphasis omitted). In short,
the plaintiffs plainly “possesse[d] information sufficient
to call [the alleged] misrepresentation[s] into question.”
Banca Cremi, 132 F.3d at 1028 (internal quotations marks
and alterations omitted).
But plaintiffs make clear in their complaint that they
signed the subscription documents “without reviewing any
version.” J.A. 181, 186. Indeed, they allege that they only
recently discovered “the nature of the documents they
signed.” Id. at 155. There is no allegation in the complaint
that they made any effort to translate the documents into
their native language, or even asked any English-speaking
attorney or investment advisor to review the documents
for them.
The question is whether plaintiffs could justifiably
rely on the alleged misstatements when they did not
read, translate, or ask advisors to review the subscription
documents. Several factors may influence whether reliance
was justifiable as a matter of law. See Banca Cremi, 132
F.3d at 1028; Sweely Holdings, LLC v. Suntrust Bank,
296 Va. 367, 820 S.E.2d 596 (Va. 2018) (finding reliance

20a
Appendix A
unjustifiable as a matter of law). But this case is not close.
The investments in a start-up company on the edge of
new automotive technology obviously signaled a high
degree of risk. Risk invites prudence; prudence involves
inquiry. The plaintiffs here were putting more than half a
million dollars in the hands of foreigners with whom they
alleged no prior relationship. It was unjustifiable to make
such an investment in reliance on stray media statements
without so much as translating or even reviewing the
subscription documents before signing them. While
everyone occasionally skips over the fine print in their dayto-day endeavors, it is fair to expect some minimal level
of due diligence before making this large an investment
in a company whose prospects were chancy and where
sizeable returns were anything but guaranteed.
Even so, plaintiffs ask this court to excuse any
unjustifiable reliance on the basis that defendants “divert[ed
them] ‘from making the inquiries and examination which
a prudent man ought to make.’” Hitachi, 166 F.3d at 629
(quoting Horner v. Ahern, 207 Va. 860, 153 S.E.2d 216,
219 (Va. 1967)). This argument also fails. Plaintiffs were
clearly provided the relevant offering documents. Nothing
in plaintiffs’ amended complaint so much as suggests
that defendants prevented them from taking the modest
step of reviewing the operative offering documents that
they signed. The defendants had no generalized duty to
translate the subscription documents for the benefit of
foreign investors, especially when translation would open
a new avenue of dispute and the English version of those
documents would have been controlling in any event. J.A.
353. Imposing some invariable new duty of translation

21a
Appendix A
on parties seeking to raise funds from foreign investors
would hike the costs of international financing for many
nations, encourage new mistranslation lawsuits, and
open the door to additional forms of mischief. There is
no plausible allegation in the complaint that defendants
diverted plaintiffs from conducting a prudent and
objectively reasonable investigation before investing. See
Hitachi, 166 F.3d at 629.
Our emphasis on reliance should come as little
surprise: that element occupied the lion’s share of the
briefing in this court and was part of both the first and
second orders to dismiss from the district court. See
J.A. 133-34, 478-79. Yet when the panel asked plaintiffs’
lead counsel where the complaint adequately alleged
reliance, he repeatedly stated that his co-counsel would
answer those questions on rebuttal. But the court was not
obligated to hold its questions on reliance for rebuttal, at
which point the opposing party would no longer have a fair
opportunity to respond. Just as counsel may divide oral
argument time, the court may expect lead advocates to
be familiar with more than a tiny corner of the complaint
and parties to advance arguments when opposing counsel
has the chance to take issue with them. Our ultimate
inquiry, of course, rests on the adequacy of the complaint
itself—but basic fairness must not become a casualty of
the appellate process at any stage.
III.
America has always relied on entrepreneurship and
investment to propel her economy forward. The EB-5

22a
Appendix A
program was intended to recognize that immigrants can
play an integral role in that story, providing jobs for our
society in exchange for the opportunity to be a part of it. But
the truth of the matter is that investments are inherently
risky, with the hope of reward weighed always against
the fear of failure. Not every failed investment can lead
to a meritorious fraud lawsuit. The element of justifiable
reliance encourages a modicum of personal responsibility
for investment decisions and helps to distinguish those
who were wrongly misled from those making post hoc
attempts to recoup market losses. Because the amended
complaint failed to adequately allege justifiable reliance,
the district court’s decision to dismiss it is
AFFIRMED.

23a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF VIRGINIA, ALEXANDRIA
DIVISION, FILED SEPTEMBER 5, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
Civil Action No. 1:17-cv-01459
XIA BI, et al.,
Plaintiffs,
v.
TERRY MCAULIFFE, et al.,
Defendants.
MEMORANDUM OPINION
THIS MATTER comes before the Court on Defendant
Terry McAuliffe and Defendant Anthony Rodhams’
Motions to Dismiss Plaintiff’s First Amended Complaint.
On December 22, 2017, Defendants removed this
action from Fairfax County Circuit Court to this Court
based on federal question and supplemental jurisdiction.
Plaintiffs Original Complaint contained eleven counts
against Defendants. On April 11, 2018 Plaintiffs filed an
amended complaint with nine counts including eight of
the original counts and one new count for negligence. The

24a
Appendix B
claims include: Fraud in the Inducement (count 1); Fraud
(count 2); Federal Securities Fraud (count 3); Breach of
Fiduciary Duty (count 4); Accounting (count 5); Aiding and
Abetting Breach of Fiduciary Duty (count 6); Conspiracy
to Commit Fraud and Breach Fiduciary Duties (count
7); Unjust Enrichment (count 8); and Negligence (count
9). Only counts one, two, three, and seven (7) are alleged
against Defendant McAuliffe. All counts are alleged
against Defendant Rodham.
The Court finds that Plaintiffs fail to state a claim
for which relief may be granted on all counts. For the
claims of fraud and fraud in the inducement (counts 1-2),
Plaintiffs fail to plead with particularity. Federal Rule
of Civil Procedure 9(b) requires a heightened pleading
standard of particularity for claims of fraud. To meet the
FRCP 9(b) particularity standard, the complaint must
(1) identify the fraudulent statements which were made
and the documents or oral representations containing
them, (2) the time and place of each statement and the
person responsible for making (or not making - in the
case of omissions) the same, and (3) the content of such
statements, the manner in which they misled the plaintiff,
and the manner in which plaintiff relied on the statements.
U.S. ex rel. Wilson v. Kellogg Brown & Root, Inc., 525
F.3d 370, 379 (4th Cir. 2008).
Here, Plaintiffs in their Amended Complaint still fail
to identify the facts needed to adequately plead claims
of fraud and fraud in the inducement with particularity.
Plaintiffs do not state which of the named Plaintiffs
claims to have relied on each statement, or where or

25a
Appendix B
how any specific Plaintiff heard or learned of the alleged
statements.
The only specific allegation against Mr. Rodham is
that he allegedly stated, in April 2011, to investors at a
public forum in Beijing that Greentech was attractive to
Gulf Coast because foreign investment constituted just
7.8% of the total investment, when in fact EB-5 investment
was allegedly the majority of the funds raised. Plaintiffs
do not allege with particularity why this statement by
Mr. Rodham was known by him at the time to be false.
Plaintiffs also do not allege how such a statement was
material to the Plaintiffs’ investment decision, considering
that the Plaintiffs contend they invested based on their
belief that their investment was “guaranteed” and would
result in the granting of their EB-5 petitions.
Similarly, for Mr. McAuliffe Plaintiffs fail to allege any
specific facts demonstrating their reliance on his alleged
statements. At least two of the alleged misrepresentations
by Mr. McAuliffe are either non-actionable puffery or
forward-looking statements that fail to misrepresent
“present pre-existing facts.” Abi-Najm v. Concord Condo.,
LLC, 280 Va. 350, 362, 699 S.E.2d 483 (Va. 2010). These
alleged statements are unfulfilled promises or statements
as to future events that do not amount to fraud.
“It is not enough for a plaintiff in a fraud action to show
that it acted to its detriment in response to the defendant’s
false representation or concealment of a material fact.”
Hitachi Credit Am. Corp. v. Signet Bank, 166 F.3d 614, 629
(4th Cir. 1999). Rather, to state a claim for fraud, “a plaintiff

26a
Appendix B
must demonstrate that its reliance upon the representation
was reasonable and justified.” Id. Reasonable reliance, in
turn, requires a reasonable investigation. The Plaintiffs
claim that they invested in the Limited Partnership
interests in reliance upon certain statements made to
them by Defendants in oral presentations and in written
statements contained in newsletters, websites, and
social media, but they did not read the English-language
private placement memorandum, subscription agreement,
partnership agreement, power of attorney, or related
formal documents presented to them before they invested.
It was unreasonable for Plaintiffs not to have
translated or read the key documents that set forth the
terms of their investments, and instead to rely upon
contradictory oral representations, informal newsletters,
and statements contained on websites and social media.
Plaintiffs’ federal securities fraud claim (count 3) fails
because they are legally foreclosed by the PSLRA from
raising a Rule 10b-5 claim in their Amended Complaint.
Specifically, the PSLRA, prohibits the amendment of
complaints. Smith v. Circuit City Stores, Inc., 286 F. Supp.
2d 707, 722-23 (E.D.Va. 2003) (stating that the PSLRA
does not “contemplate amending complaints, it sets a high
standard of pleading which if not met results in mandatory
dismissal”). The plain language of the Reform Act does
not contemplate amending complaints. In re Champion
Enters., Inc., Sec. Litig., 145 F. Supp. 2d 871, 873 (E.D.
Mich. 2001), aff’d on other grounds sub nom. Miller v.
Champion Enters. Inc., 346 F.3d 660 (6th Cir. 2003). This
is because “the [PSLRA] could not achieve this purpose

27a
Appendix B
. . . to ‘provide a filter at the earliest stage (the pleading
stage) to screen out lawsuits that have no factual basis’ if
plaintiffs ‘were allowed to amend and amend until they
got it right.” Id. Count three thereby fails.
Plaintiffs next allege breach of fiduciary duty (count
4), and aiding and abetting breach of fiduciary duty
(count 6) against Defendant Rodham. As mentioned in
the Court’s first motion to dismiss order, Virginia law
does not recognize a separate tort for aiding and abetting
breach of fiduciary duty. As for the breach of fiduciary
duty claim, Plaintiffs still lack standing to assert such a
claim. Plaintiffs are partners in the Limited Partnership,
not in the defendant companies. The Limited Partnership
merely loaned proceeds to Greentech. The Complaint does
not state allegations that Plaintiffs have an interest in the
defendant companies to create a fiduciary relationship.
Plaintiffs’ attempt to cure this deficiency in the First
Amended Complaint is futile because any alleged injury
that was suffered was suffered by the Limited Partnership
and not by the Plaintiffs directly.
Count 8, conspiracy to commit fraud and breach
fiduciary duties still fails because Plaintiffs do not state
cognizable claims for the underlying actions of the
conspiracy. Civil conspiracy is not an independent cause
of action, but requires an underlying wrong which would
be actionable absent the conspiracy. See Nutt v. A.C. &
S. Co., Inc., 517 A.2d 690, 694 (Del. Sup. 1986). Because
Plaintiffs’ claims for fraud and breach of fiduciary duty
fails, so too must the claim for conspiracy.

28a
Appendix B
For the accounting claim (count 6), the First Amended
Complaint still fails to allege any cognizable right to such
an accounting under the Limited Partnership Agreement.
Plaintiffs are simply members of a partnership who
loaned money to the defendant companies, and the
partnership agreement does not expressly provide a right
to accounting.
Plaintiffs next allege a claim for unjust enrichment
(count 8). Nothing in the First Amended Complaint has
cured the fact that the claim seeks recovery for the loss
of income to the Limited Partnership. Any recovery to be
had would be to the Limited Partnership and not to the
individual Plaintiffs. Plaintiffs lack standing to bring suit
against Defendants for this claim.
Finally, with respect to the new claim of negligence
(count 9), the Court finds that this claim also fails. The
basis for this claim is that Mr. Rodham failed in his alleged
duty to the Plaintiffs by not recording a lien on Greentech’s
assets that would have secured the loan made by the
Limited Partnership to Greentech, thereby causing A-3
to lose priority in Greentech’s bankruptcy. Plaintiffs seek
recovery for the loss of income to the Limited Partnership
which, as discussed above, Plaintiffs do not have standing
to assert a claim against. Moreover, Plaintiffs have not
alleged a plausible basis to find that Mr. Rodham owed
them, in their individual capacities, a duty to record the
lien. Count nine (9) fails.
For the reasons stated, the Court finds that Plaintiffs
fail to state a claim on all counts. Accordingly, Defendants’

29a
Appendix B
Motions to Dismiss are granted. This case is dismissed.
An appropriate order shall issue.
/s/ Claude M. Hilton
CLAUDE M. HILTON
UNITED STATES DISTRICT
JUDGE
Alexandria, Virginia
September 5, 2018

30a
C THE UNITED
APPENDIX C —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF VIRGINIA, ALEXANDRIA
DIVISION, FILED MARCH 30, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION
Civil Action No. 1:17-cv-01459
XIA BI, et al.,
Plaintiffs,
v.
TERRY MCAULIFFE, et al.,
Defendants.
ORDER
THIS MATTER comes before the Court on Defendant
Terry McAuliffe and Defendants’ Anthony Rodham,
A mer ican Immig ration Center, LLC, Greentech
Automotive Capital A-3 GP, LLC, Greentech Automotive,
Inc., Gulf Coast Funds Management, LLC, and WM
Industries Corporation’s Motions to Dismiss.
This case has been stayed for defendants American
Immigration Center, LLC, Greentech Automotive Capital
A-3 GP, LLC, Greentech Automotive, Inc., Gulf Coast
Management, LLC, and WM Industries Corporation

31a
Appendix C
pending disposition by the U.S. Bankruptcy Court for
the Eastern District of Virginia. This Order therefore
addresses the remaining defendants who have brought
motions to dismiss - Terry McAuliffe and Anthony
Rodham.
On December 22, 2017, Defendants removed this
action from Fairfax County Circuit Court to this Court
based on federal question and supplemental jurisdiction.
Plaintiffs filed eleven counts against Defendants including:
Fraud in the Inducement (count 1); Fraud (count 2);
Federal Securities Fraud (count 3); Securities Fraud
Pursuant to Mississippi Code § 75-71-509 (count 4);
Breach of Fiduciary Duty (count 5); Accounting (count
6); Aiding and Abetting Breach of Fiduciary Duty (count
7); Conspiracy to Commit Fraud and Breach Fiduciary
Duties (count 8); Breach of Contract (count 9); Breach of
Implied Covenant of Good Faith and Fair Dealing (count
10); and Unjust Enrichment (count 11).
The Court finds that Plaintiffs fail to state a claim
for which relief may be granted on all counts. For the
claims of fraud and fraud in the inducement (counts 1- 2),
Plaintiffs fail to plead with particularity. Federal Rule
of Civil Procedure 9(b) requires a heightened pleading
standard of particularity for claims of fraud. To meet the
FRCP 9(b) particularity standard, the complaint must
(1) identify the fraudulent statements which were made
and the documents or oral representations containing
them, (2) the time and place of each statement and the
person responsible for making (or not making - in the
case of omissions) the same, and (3) the content of such

32a
Appendix C
statements, the manner in which they misled the plaintiff,
and the manner in which plaintiff relied on the statements.
U.S. ex rel. Wilson v. Kellogg Brown & Root, Inc., 525
F. 3d 370, 379 (4th Cir. 2008).
Here, Plaintiffs fail to identify the facts needed
to adequately plead claims of fraud and fraud in the
inducement with particularity. The federal and Mississippi
securities fraud claims (counts 3 - 4) suffer from the same
defects. The federal securities fraud count, as a rule
10b-5 and fraud-based claim, is subject to FRCP 9(b)’s
heightened pleading standard.
Similarly, the pleading standard for the Mississippi
securities fraud claim is interpreted in line with federal
law. See Harrington v. Office of Mississippi Secretary
of State, 129 So. 3d 153, 159 (Ms. 2013) (“There exists a
dearth of case law on Mississippi securities law, however,
Mississippi’s regulations are similar to the federal
securities regulations, and we are able to look to federal
case law for guidance.”). Count 4 is therefore also subject
to the particularity standard. Neither count 3 nor count
4 pleads with particularity as required under the law.
Plaintiffs have therefore not stated a claim for any of the
fraud counts upon which recovery may be had.
Plaintiffs next allege breach of fiduciary duty (count
5), and aiding and abetting breach of fiduciary duty (count
7). Virginia law does not recognize a separate tort for
aiding and abetting breach of fiduciary duty. As for the
breach of fiduciary duty claim, Plaintiffs lack standing to
assert such a claim. Plaintiffs are partners in the Limited

33a
Appendix C
Partnership, not in the defendant companies. The Limited
Partnership merely loaned proceeds to Greentech. The
Complaint does not state allegations that Plaintiffs have an
interest in the defendant companies to create a fiduciary
relationship. Any alleged injury that was suffered was
suffered by the Limited Partnership and not by the
Plaintiffs directly.
Count 8, conspiracy to commit fraud and breach
fiduciary duties, fails because Plaintiffs do not state
cognizable claims for the underlying actions of the
conspiracy.
For the accounting claim (count 6), Plaintiffs fail to
allege any right to such accounting measures. Plaintiffs
are simply members of a partnership who loaned money to
the defendant companies, and the partnership agreement
does not expressly provide a right to accounting.
Plaintiffs further allege a breach of contract (count 9),
and breach of the implied covenant of good faith and fair
dealing (count 10). While Mr. Rodham is not a party to the
contract and is therefore not liable on it, Plaintiffs fail to
plausibly allege a breach of contract. Notably, Plaintiffs
do not cite to any specific provisions in the Agreement
that Defendants are alleged to have breached. Further,
Plaintiffs agreement is with the partnership and not with
the companies themselves. The implied covenant claim
fails for the same reasons. Plaintiffs do not plausibly
allege that an implied contract obligation existed with
these defendants, and if and how those obligations were
breached.

34a
Appendix C
Lastly, the claim for unjust enrichment (count 11) fails
because any recovery to be had would be to the Limited
Partnership and not to the individual Plaintiffs. Plaintiffs
lack standing to bring suit against Defendants for this
claim.
For the reasons stated, the Court finds that Plaintiffs
fail to state a claim on all counts. Accordingly, it is hereby
ORDERED that Defendants’ Motions to Dismiss
are GRANTED and this case is DISMISSED AS
TO DEFENDA NTS TERRY MCAULIFFE A ND
ANTHONY RODHAM. Plaintiffs shall have 20 days to
file an Amended Complaint.
/s/ Claude M, Hilton
CLAUDE M, HILTON
UNITED STATES DISTRICT
JUDGE
Alexandria, Virginia
March 30, 2018

35a
AppendixOF
D REHEARING OF
APPENDIX D — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FOURTH CIRCUIT, FILED JULY 9, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2194
(1:17-cv-01459-CMH-IDD)
XIA BI; NIAN CHEN; YUANYUAN CHEN; YING
CHENG; JUN HUANG; KUI LE; CHUNGSHENG
LI; ZHONGHUI LI; LIN LIN; LAN LIU; MEIMING
SHEN; YUNPING TAN; BIXIANG TANG; CHUN
WANG; RUI WANG; YAHONG WANG; YUE WANG;
JIAN WU; LEI YAN; JUNPING YAO; JIN YOU;
ZHEN YU; HOUQIAN YU; NIANQING ZHANG;
XUEMEI ZHANG; HUIBIN ZHAO; YAN ZHAO,
Plaintiffs-Appellants,
v.
TERRY MCAULIFFE; ANTHONY RODHAM,
Defendants-Appellees,
and
XIAOLIN “CHARLES” WANG; DOES 1-100,
Defendants.
July 9, 2019, Filed

36a
Appendix D
ORDER
The petition for rehearing en banc was circulated to
the full court. No judge requested a poll under Fed. R.
App. P. 35. The court denies the petition for rehearing
en banc.
For the Court
/s/ Patricia S. Connor, Clerk

